<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 2001</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
  DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, 

                                 AND

           INDEPENDENT AGENCIES APPROPRIATIONS FOR 2001 

                                

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                             SECOND SESSION

                                ________

            SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES
                   JAMES T. WALSH, New York, Chairman

 TOM DeLAY, Texas                      ALAN B. MOLLOHAN, West Virginia
 DAVID L. HOBSON, Ohio                 MARCY KAPTUR, Ohio
 JOE KNOLLENBERG, Michigan             CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey   DAVID E. PRICE, North Carolina
 ANNE M. NORTHUP, Kentucky             ROBERT E. ``BUD'' CRAMER, Jr.,
 JOHN E. SUNUNU, New Hampshire          Alabama
 VIRGIL H. GOODE, Jr., Virginia     
                                    
                                    
                                    

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
       Frank M. Cushing, Timothy L. Peterson, Valerie L. Baldwin,
          Dena L. Baron, and Jennifer Whitson, Staff Assistants
                                ________

                                 PART 3

                       NATIONAL SCIENCE FOUNDATION

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE 

 64-512                     WASHINGTON : 2000


                 COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                       DAVID R. OBEY, Wisconsin 
 JERRY LEWIS, California                  JOHN P. MURTHA, Pennsylvania 
 JOHN EDWARD PORTER, Illinois             NORMAN D. DICKS, Washington 
 HAROLD ROGERS, Kentucky                  MARTIN OLAV SABO, Minnesota 
 JOE SKEEN, New Mexico                    JULIAN C. DIXON, California 
 FRANK R. WOLF, Virginia                  STENY H. HOYER, Maryland 
 TOM DeLAY, Texas                         ALAN B. MOLLOHAN, West Virginia 
 JIM KOLBE, Arizona                       MARCY KAPTUR, Ohio 
 RON PACKARD, California                  NANCY PELOSI, California 
 SONNY CALLAHAN, Alabama                  PETER J. VISCLOSKY, Indiana 
 JAMES T. WALSH, New York                 NITA M. LOWEY, New York 
 CHARLES H. TAYLOR, North Carolina        JOSE E. SERRANO, New York 
 DAVID L. HOBSON, Ohio                    ROSA L. DeLAURO, Connecticut 
 ERNEST J. ISTOOK, Jr., Oklahoma          JAMES P. MORAN, Virginia 
 HENRY BONILLA, Texas                     JOHN W. OLVER, Massachusetts 
 JOE KNOLLENBERG, Michigan                ED PASTOR, Arizona 
 DAN MILLER, Florida                      CARRIE P. MEEK, Florida 
 JAY DICKEY, Arkansas                     DAVID E. PRICE, North Carolina 
 JACK KINGSTON, Georgia                   MICHAEL P. FORBES, New York 
 RODNEY P. FRELINGHUYSEN, New Jersey      CHET EDWARDS, Texas 
 ROGER F. WICKER, Mississippi             ROBERT E. ``BUD'' CRAMER, Jr., 
 GEORGE R. NETHERCUTT, Jr.,                Alabama 
 Washington                               MAURICE D. HINCHEY, New York 
 RANDY ``DUKE'' CUNNINGHAM,               LUCILLE ROYBAL-ALLARD, California 
California                                SAM FARR, California 
 TODD TIAHRT, Kansas                      JESSE L. JACKSON, Jr., Illinois 
 ZACH WAMP, Tennessee                     CAROLYN C. KILPATRICK, Michigan 
 TOM LATHAM, Iowa                         ALLEN BOYD, Florida 
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania
 VIRGIL H. GOODE, Jr., Virginia     
                                    

                  JAMES W. DYER,Clerk and Staff Director 

                                  (ii)


DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND 
              INDEPENDENT AGENCIES APPROPRIATIONS FOR 2001

                              ----------                              

                                            Tuesday, April 4, 2000.

                      NATIONAL SCIENCE FOUNDATION

                               WITNESSES

RITA COLWELL, DIRECTOR
EAMON M. KELLY, CHAIRMAN, NATIONAL SCIENCE BOARD

                             Opening Remarks

     Mr. Walsh. Good morning.
    Today, we will take testimony on the fiscal year 2001 
budget request of the National Science Foundation. This year's 
request of $4,572,400,000 represents an increase of about $675 
million, about a 17-percent increase above the fiscal year 2000 
level.
    Representing the Foundation this morning will be the 
director, Dr. Rita Colwell. Accompanying Dr. Colwell again this 
year will be the Chairman of the National Science Board, Dr. 
Eamon Kelly, and we welcome you both.
    Ms. Colwell. Thank you.
    Mr. Walsh. As we get started this morning, I would note 
that this is the fiftieth anniversary of the National Science 
Foundation. In that context, I think it is entirely appropriate 
to congratulate you both for this very robust budget 
submission.
    While our 302(b) allocation may ultimately not allow us to 
provide all that you have requested, your fiscal year 2001 
submission and the past support of this subcommittee 
demonstrates the true bipartisan support that has been provided 
and which is so necessary for the continued development of a 
strong and aggressive science and research community in this 
country.
    I will have a number of questions this morning detailing--
with some specifics of the direction NSF is heading in the 
overall budget request, but I want you to understand these 
questions should in no way be interpreted as critical of the 
commitment that you are making toward the enhancement of 
science or of the Foundation.
    With that, I will ask my friend and colleague, Mr. 
Mollohan, if he would like to make any opening comments and 
then ask you to present your statement, all of which will be 
included in the record.
    Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman.
    I want to welcome the witnesses to the hearing, and I look 
forward to their testimony.
    Mr. Walsh. Thank you.
    Dr. Colwell.
    Ms. Colwell. Thank you.
    Mr. Chairman and Ranking Member Mollohan and Members of the 
subcommittee, I thank you very much for allowing me the 
opportunity to testify the NSF's budget request for fiscal year 
2001.
    Before I begin my testimony, let me turn first to Dr. Eamon 
Kelly, chairman of the National Science Board, for his comments 
on this very important NSF budget request for FY2001.
    Dr. Kelly.
    Mr. Kelly. Once again, I thank you all for the opportunity 
to testify.
    Above all, I wish to express my support for the 
Foundation's request of $4.6 billion for fiscal year 2001. The 
proposed budget for NSF is a significant step towards remedying 
the under-investment in basic research.
    The 21st Century Research Fund reflects the 
administration's continuing recognition that research is the 
keystone of our $8.5-trillion economy and the route to enhanced 
quality of life for all of our citizens.
    The 17-percent increase in NSF is a wise investment and 
endorsed by the House Science Committee and moreover in the 
House budget resolution as a Function 250 priority.
    Knowledge and inventions emerging today are a tribute to 
research investments made in past years in a bipartisan spirit. 
Predicting the impacts of the recent revolutions in genetics 
and telecommunications would have been impossible. The ability 
of our Nation to understand, harness and distribute the fruits 
of knowledge once again reminds us that science and engineering 
are long-term, high-risk investments with high payoffs.
    As an economist, I am eager to point out that even in the 
face of the demonstrably high return on basic research 
investment, considerably 30 percent, the U.S. public and 
private sectors are under-investing in basic research.
    Universal acclaim for the benefits realized from federally 
supported basic research has not yet generated commensurate 
public investment. In an $8.8-trillion knowledge-based economy, 
more than 2.8 percent of the Nation's GDP should be devoted to 
R&D, but more significantly, the Federal contribution as a 
proportion of the U.S. investment is shrinking.
    Today, the Federal Government provides about a third of 
total R&D funding. A decade ago, the Federal share was 46 
percent. Three decades ago, it was 60 percent.
    In basic research, the research with the highest payoffs, 
the $20-billion proposed investment is less than one-quarter of 
total Federal R&D and a minuscule portion of the total Federal 
budget.
    Back then to the budget request for the National Science 
Foundation: it represents less than 4 percent of the annual 
Federal spending on R&D and amounts to only 15 percent of the 
Federal basic research budget.
    Mr. Chairman, Director Colwell will highlight priorities in 
the NSF budget. I would observe that one-half of the budget 
request is for core support to grow the knowledge base. This 
takes time and resources competitively awarded across a 
spectrum of disciplines, problems, and universities.
    The Foundation is determined to increase the average dollar 
amount in duration of research grants. This would bring both 
greater efficiencies and much-needed continuity in 
investigators' research programs and support of students.
    The other half of the Foundation's request identifies 
specific priorities representing a 20-percent increase within 
the Foundation's research and related activities account. This 
is an appropriately bold increase in an investment budget.
    I note that information technology research, nanoscale 
science and engineering, and biocomplexity in the environment 
are administration multi-agency initiatives that NSF will lead.
    In particular, the Board's just-issued report, 
``Environmental Science and Engineering for the 21st Century,'' 
calls for enhanced support of environmental research, 
education, assessment and infrastructure.
    Mr. Chairman, I have tried to put the fiscal year 2001 R&D 
budget request into perspective. Investments in basic science 
and technology underlie the relationship between productivity 
and higher standards of living. This makes NSF a major partner 
in the Nation's economic growth. The long-term, high-risk, 
high-payoff strategy of the National Science Foundation must be 
preserved as a catalyst in the Federal R&D portfolio, and the 
fiscal year 2001 investment budget proposal restores some 
essential balance to that portfolio.
    In closing I wish to commend my colleague, NSF director 
Rita Colwell, for her able and energetic leadership, and thank 
the committee for its support of research and education 
especially at the National Science Foundation.
    I will be pleased to answer any questions at the 
appropriate time, and now Director Colwell.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Colwell. Mr. Chairman, Congressman Mollohan, Members of 
the subcommittee, I would like to begin by thanking you very 
sincerely for the consistent bipartisan support for the NSF's 
science and engineering activities.
    Mr. Chairman, the FY2001 budget request of $4.57 billion, 
if it is enacted, would provide the largest-dollar increase the 
Foundation has ever received. This 17.3-percent increase will 
set the stage for a new century of progress through learning 
and discovery.
    Our Nation's commitment to science, engineering, and 
education can be seen from the very beginning of the Republic. 
The motto on America's first coin, for example, minted in 1792 
read, ``Liberty, parent of science and industry.'' That motto 
has just as much meaning today in the 21st century as it did in 
1792 when that was a time even before the advent of the steam 
engine.
    Individual scientists and engineers supported by NSF and 
other Federal agencies are using their talent and their freedom 
to create, discover, and innovate, and now many are moving from 
the universities into the private sector.
    Just as an aside, the NSF supports directly 200,000 
individuals every year, high school students, undergraduates, 
graduate students, postgraduate students, faculty, teachers. 
This transfer to the private sector of people, researchers, and 
students, first supported by NSF at the universities, should be 
viewed as the ultimate success of technology transfer. These 
talented scientists and engineers are part of the new wave of 
entrepreneurs creating enormous wealth in areas like 
information technology, biotechnology, and now in 
nanotechnology.
    Every day, we read a news story that touts the latest 
internet whiz kid or biotechnology IPO. David Ignatius in a 
recent column in The Washington Post wrote about a 27-year-old 
Stanford graduate student with a smart business plan in a hot 
internet search engine with a very strange name of Google. In 
case you did not remember from mathematics, google is 10 to the 
100th power. It was coined by a mathematician who asked his 5-
year-old son what to call this 10 to the 100th, and the kid 
said Google, and that is the history of the term.
    This off-beat name is actually a reference to complex math, 
and it is a series of mathematical algorithms that makes the 
search engine in the company Google work. It involves over 
half-a-billion variables in its complex calculations.
    Google, the company, is a great example of how fundamental 
research in an area like mathematics acts as the lifeblood of 
the IT revolution. It also shows how the unparalleled 
innovation system in the United States can very quickly exploit 
new ideas that are developed in university laboratories and 
then brought to market.
    This trend has not gone unnoticed by industry. Leaders like 
Alfred Berkeley, the president of the Nasdaq Stock Exchange, 
CEOs like Norm Augustine of Lockheed, and 47 members of the 
Council on Competitiveness have all issued statements about the 
importance of the NSF's investments in basic research. I have 
attached copies of these statements and the letter for the 
record.
    Mr. Chairman, the headliners in the NSF 2001 request are 
four focused initiatives. I would call them national 
priorities: information technology research, biocomplexity, 
21st century workforce, and the emergent transcendent NSF 
nanoscale science and engineering initiative.
    As Dr. Kelly pointed out, nearly half of our requested 
increase, $320 million, will support the core activities. It 
will help us with the biggest challenge we face, strengthening 
the core disciplines of science and engineering while we move 
forward in the priorities and the interdisciplinary areas.
    These efforts also depend on a workforce that is literate 
in science and technology. Our Nation is in the midst of one of 
the greatest eras of technological change in human history. In 
an economy driven by knowledge and ideas, how we prepare our 
workforce is paramount, and we are committed at the National 
Science Foundation to providing leadership in this very 
critical area.
    Mr. Chairman, let me very briefly mention two new starts in 
our investment in tools. In the major research equipment 
account, we will add about $45 million for two new starts and 
to provide increases to the ongoing projects.
    One is NEON, the National Ecological Observatory Network. 
This is a pole-to-pole network, Arctic to the Antarctic, with 
the state-of-the-art infrastructure, platforms and equipment to 
enable 21st-century science- and engineering-based ecological 
and biocomplexity research.
    The other start is EarthScope which is an array of 
instruments that will allow scientists to observe earthquake 
and other processes like volcanoes, volcanic eruptions, at much 
higher resolutions and at greater distances.
    Finally, let me also mention our requested investment in 
excellent high-quality staff and in cutting-edge technology to 
keep the NSF's internal operations strong and responsive.
    In our request for administration and management funds, we 
are confident that the Foundation will continue its commitment 
to scientific excellence, but at the same time to very sound 
stewardship and accountability for the public resources.
    Mr. Chairman, since its founding 50 years ago, May 10th, 
1950, to be exact, the National Science Foundation has been an 
important and vital catalyst for discovery in innovation, and 
the NSF's FY2000 budget request reflects the lessons of 
history. It focuses on national priorities, as it should, but 
it also recognizes that one of our highest national priorities 
must be to remain at the leading edge of science and 
engineering research and education across the board. The 
requested increase of over 17 percent provides a level of 
investment that is clearly in keeping with a wealth of 
opportunity that science and engineering provides society in 
today's world.
    In addition, it positions America to remain a world leader 
in a knowledge-based economy of the 21st century.
    Thank you.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                      INITIATIVES IN NSF'S BUDGET

    Mr. Walsh. Thank you very much.
    You outlined in your opening statements and highlighted in 
the budget justification the four initiatives, as did Dr. 
Kelly.
    These initiatives are not new programs, per se, but NSF 
focuses on them in this budget, specifically some very 
substantial increases and requests.
    This would raise some questions that I would like to put to 
you. I will not go through all of the increases, but in each of 
the four areas, we are looking at in excess of 100-percent 
increases.
    I realize that each of these expanded initiatives has been 
approved by the Science Board as well as by OMB. However, I 
think it would be instructive to the committee for you to 
explain in some detail how these four areas were determined to 
be the ``most important'' and how funding levels for each were 
actually determined.
    I would like you to do that and give weight to how the 
priorities were determined in consultation with the Board and 
with OMB.
    Ms. Colwell. The budget process is a highly collaborative 
process.
    First, in determining the priority areas, we take into 
account our advisory committees. Each of the directorates has 
an advisory committee, and certainly the National Science 
Board.
    We consult with scientists in the field, with our advisory 
committees, and internally the senior staff meet, and we began 
our discussions really almost a year and a quarter ago in a 
retreat where we looked at all of the data that we had and came 
up with a clear agreement that information technology was 
transforming science and engineering across the country and 
across disciplines, and that every discipline from chemistry, 
mathematics, biology, to the social sciences, all were riding 
on this enormous crest of computer-aided discovery and 
research.
    Mr. Walsh. Let me interrupt and hone in a little bit on the 
angle.
    Ms. Colwell. Sure.
    Mr. Walsh. I do not think you need to justify each one of 
these initiatives.
    Ms. Colwell. Okay.

             ESTABLISHING PRIORITIES FOR NSF'S INITIATIVES

    Mr. Walsh. Just, if you could, tell me how the decision to 
support these was arrived at vis-a-vis your advisory 
committees, OMB, and how that happens.
    Ms. Colwell. We establish these through discussions. We 
have discussions with our advisory committees and with the 
community in general, principal investigators, and proposal 
pressure is also part of the consideration.
    Mr. Walsh. Proposal pressure?
    Ms. Colwell. Yes. That is the proposals that come in and 
the assessment that there are people out there who are able to 
carry out this research. So it is not just throwing out an idea 
and hoping people will pick it up, but having a cadre of 
personnel who can carry out the research.
    Mr. Walsh. So, if you are seeing in one area lots and lots 
of proposals for a finite amount of money, you say this is 
obviously something that the science is interested in. 
Therefore, we need to fund it.
    Ms. Colwell. Well, it is more than just interest. It 
suggests that there is excitement, and there is a movement 
toward discovery. It is a cutting-edge area. There are a lot of 
people working on it. Things are happening. Papers are being 
published. Announcements of discoveries are being made. So 
these are areas that clearly merit interest and pursuit by the 
Foundation.
    The value across the disciplines is also taken into account 
in all of these areas. They influence and effect the decisions 
and this involves all the basic disciplines in some way, shape, 
or form.
    So, having brought these forward within the Foundation, we 
then immediately bring them to the Board, and there are a 
series of discussions, at least three meetings of the Board, in 
the very early stage and then in a mid stage and then in a 
finalizing stage.
    We do have discussions ongoing with OMB. So we do not just 
``spring a surprise'' on them because we have discussions that 
allow us to get a sense of national priorities as well.
    So that, the final product, the budget, is really a series 
of discussions, interactions, feedbacks, and the budget itself, 
for example, the report on the environment, is posted on the 
web. So comments on that report, which the Board produced, came 
from the community at large.
    I would say that this is about as democratic a process as 
one could wish.

                    OMB'S ROLE IN SETTING PRIORITIES

    Mr. Walsh. Does OMB have an inordinate amount, would you 
say, of clout in prioritizing these items?
    Ms. Colwell. No.
    Mr. Walsh. Do they ever spring anything on the Foundation?
    Ms. Colwell. No, sir. I can say that in total candor and 
honesty.
    In fact, we have had to do some convincing of OMB, 
especially in a couple of areas that I consider absolutely 
fundamental to the National Science Foundation, and that is 
increasing grant size and duration because the average grant 
right now is between $70,000 and $80,000. The average NIH grant 
is about $250,000. The average length of time of an NSF grant 
is less than 3 years. The average time is 4 years at NIH, and 
it takes at least 4 years to graduate a Ph.D. This is highly 
inefficient. It is really very important that we increase grant 
size and duration. OMB has understood that and agreed and 
instructed us to go forward with it.
    So I would say it is more in the persuasion from the NSF 
side.

                    NSB's ROLE IN SETTING PRIORITIES

    Mr. Kelly. From the Board standpoint, what we have done is 
try to do it on a little bit broader level, to take all of the 
input that the director has outlined and put scientific input 
from the Congress, from the administration, from the community, 
from the professional staff, and put that together in a broader 
set of major directions for the future and. We outlined that in 
a strategic plan about a year and a half ago which we submitted 
to this committee, and most of the activities you see coming 
forward as major initiatives were reflected in that strategic 
plan.
    That has all been accepted by OMB as well. There are 
conversations that take place about specific parts of any of 
these initiatives and arguments over which is the best way of 
expending the money, but generally there has been tremendous 
support there.
    To give you one example of how the amount is determined, 
for biocomplexity in the environment, what we did was a total 
literature review, every policy paper that had been drafted in 
this area, plus reviewing a variety of publications, scientific 
publications, and then we had several hearings in the community 
and we defined category by category where there were gaps and 
what had others projected as the amounts of those gaps.
    We then prioritized those amounts and added them up, and 
that is how we came up with the number of where we thought we 
could make a real contribution and the amount required to make 
that contribution in that initiative. That is the way we worked 
on it.

                     FUNDING FOR NSF's Initiatives

    Mr. Walsh. Of the $490-million increase for these four 
initiatives, some $355 million would be considered new funding, 
while merely $135 million is listed as base reallocation.
    I assume by this that you are terminating or otherwise 
phasing out certain research programs in each of these areas so 
that the dollars can be used to focus on these ``higher-
priority areas.'' Am I correct in this assumption?
    Ms. Colwell. When we were preparing the budget and were 
given the starting numbers, a level budget, we were asked what 
would our priorities be and demonstrate them by reallocations 
if we felt strongly enough about the initiatives. Clearly we 
believed that if we had been in the terrible situation of a 
level budget, we would still go forward in these initiatives 
because they clearly are initiatives that are critical for the 
Nation.
    So the reallocations represent funds that we took from 
programs that have run their full time because NSF does not 
fund programs ad infinitum.
    The agency's mission being fundamental research, we are 
always evolving and turning to new areas. So it was programs 
that were going to be ending from which we took funds to put in 
our initiatives, and that is a very healthy way, I think, for 
an agency to operate.

            MATERIALS RESEARCH PARTICIPATION IN INITIATIVES

    Mr. Walsh. Let me hone in a little bit on those areas of 
base funding that may be sacrificed at the alter for these four 
new initiatives.
    We regularly hear from the research community who have and 
will continue to receive the grants. While they all applaud 
your overall budget request, there also seems to be universal 
concern that a reallocation from the base programs could cause 
severe harm to many ongoing research efforts.
    Let me just cite one specifically because it is close to 
home. I note the increase slated for facilities and 
instrumentation for the Division of Materials Research is 
approximately 2.9 percent.
    Reviewing past history of this program suggests that it has 
been flat-funded for nearly a decade. Given the increase in 
cost over the past decade, this is a substantial shrinking in 
support given to the invention development and acquisition of 
the cutting-edge tools needed by these endeavors. New ideas at 
facilities such as Cornell's High-Energy Synchrotron source, a 
facility that the Foundation regularly touts as among its most 
effective, will find a degenerating support environment as the 
facility is neglected over periods of this length. These 
facilities are also shared by a number of institutions and 
scientists.
    Ms. Colwell. You see, what is very important here, Mr. 
Chairman, is that with the initiatives, these are not just in a 
single directorate. We are in a new world, the 21st century, 
with much interdisciplinary activity. So that, the 
investigators who were funded strictly through the Material 
Science Division can now apply to the information technology 
research initiative, to the biocomplexity initiative, and 
certainly to the nanotech initiative. So that, in fact, there 
are more funds available for them. It is a way to bring the 
interdisciplinarity, which the researchers with whom I am quite 
familiar at the University of Syracuse, for example, would be 
highly competitive for these initiatives.
    So the funds actually have increased in their availability. 
It is a way we are working in the 21st century which is not 
through silo-designed disciplines, but cross-disciplinary 
interactions. We want to keep the disciplines strong, but we 
also want to make sure that we enhance interdisciplinary, 
exciting, cross-disciplinary research where the discoveries are 
being made in areas like nanotechnology, and Materials Research 
has a lot to contribute.

                          NSF FUNDING CHANGES

    Mr. Walsh. Does the budget language, then, need to better 
reflect those changes in funding?
    Ms. Colwell. I think what we are trying very hard to do is 
to reflect this in the program announcements and in discussions 
with advisory committees and in workshops that we have around 
the country to let the principal investigators know that this 
is a new way of doing business, and it is the 21st-century 
interdisciplinary areas that they need to apply to.
    Mr. Walsh. So when scientists in places like the 
Synchrotron Lab at Cornell say that we are concerned that our 
funding levels are stagnant and we cannot do the work that we 
could because we cannot pay increased salaries, we cannot hire 
additional engineers, that sort of thing, what do I tell them?
    Ms. Colwell. That they need to reach out and apply to these 
interdisciplinary programs as well, and that is a mechanism for 
bringing the funds in to do the research that they need to do 
because they are very good at it.
    Mr. Kelly. We are also growing the base, as I said, that 
half of the increases grow the base so that the size and 
duration of the grants for the individual investigators and 
activities such as the one you have described are going to be 
enhanced in this budget if it is approved, and it really goes 
back to the old problem. The old problem is we just basically--
the Board is faced and the management is faced with very, very 
difficult priority choices because of the egregious 
underfunding of basic research in this country. It is a problem 
as we move into nanotechnology. We are not ahead of other 
countries in the world in nanotechnology. We are behind.
    Little by little, the past inefficiencies in funding 
resulting in too small grants for too short duration and not 
enough in-depth funding for key areas is going to have its 
impact. So this is a very important budget for us. That is part 
of the problem, but we have put half the resources into the 
base.

                      future increases for funding

    Mr. Walsh. Mr. Mollohan?
    Thank you, Doctor. Thank you.
    Ms. Colwell. Thank you.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Dr. Colwell, I believe that you and Dr. Kelly need to be 
congratulated on your budget request. It looks like a nice 
start for your fiftieth birthday celebration.
    You testified, Dr. Kelly, that we are severely under-
investing in research. When the President's 21st Century 
Research Fund was announced 2 years ago, the targets were set 
for growth for each agency over a 5-year period ending in 2003, 
and it was a multi-year approach more modest than the current 
budget for NSF.
    Should the committee view your 2001 request as a stand-
alone request, or is this part of a trend line which is higher 
than that projected in the 21st Century Research Fund 
announcement?
    Ms. Colwell. For the first time, Mr. Mollohan, OMB asked us 
to provide a 5-year projection of where we needed to go--and we 
have done that--I will be very candid. I do think that the 
National Science Foundation overall budget is much too small by 
a factor of two.
    I would say that simply increasing grant size and duration 
of our current grants would require $4 billion added to the 
budget. To be able to do the initiatives that we feel are very 
important for this country, for leadership in these areas like 
nanotech and infotech, it would require an additional $2 or $3 
billion.
    So that, we are going to strive very hard over the next 5 
years to pursue the increases and bring this Nation to the 
proper level of funding of basic research.
    I have said over and over again, today's prosperity is due 
to yesterday's research. Tomorrow's prosperity is going to be 
today's research. So I hope I have answered the question.
    Mr. Mollohan. You have answered part of it. I will follow 
up here a little bit, and you can answer it all.
    Ms. Colwell. Thank you.
    Mr. Kelly. The fact is that in basic research, we put in 
two-thousandths of 1 percent. That is a nano contribution to 
basic research in the percentage of the economy.

                         five year funding plan

    Mr. Mollohan. Well, with regard to the President's 21st 
Century Research Fund announcement 2 years ago, we are not 
operating off of that plan now. So what is the new plan? What 
does the trend line look like? Do you have a 5-year runout?
    Ms. Colwell. Yes, we do. In fact, we have produced a single 
strategic plan for the Science Board and the National Science 
Foundation. We have aligned our budget with that plan, and we 
have aligned that with our GPRA plan.
    So, for the first time, we are in synchrony with respect to 
strategic goals, with respect to accountability through GPRA, 
and through budget building to achieve our goals in the out-
years.
    Mr. Mollohan. And this is the first year of that 5-year 
plan?
    Ms. Colwell. Yes, sir.
    Mr. Mollohan. That represents a 17-percent increase?
    Ms. Colwell. Yes, sir.
    Mr. Mollohan. Are you projecting increases for 2003, 2004, 
2005?
    Ms. Colwell. Yes.
    Mr. Mollohan. What does that trend line look like?
    Ms. Colwell. We are hoping to move toward a double or 
tripling of the budget in a 5-year period.
    Mr. Mollohan. That is quite a difference, the doubling or 
tripling. What are we looking at?
    Ms. Colwell. We are looking at a minimum of doubling the 
budget over a 5-year period.
    Mr. Mollohan. Is this on a piece of paper anywhere?
    Ms. Colwell. Yes, sir. We can share that with you.
    Mr. Mollohan. It is not a part of your budget submission?
    Ms. Colwell. No, sir.
    Mr. Mollohan. Would you share it with the committee?
    Ms. Colwell. I would be happy to.
    Mr. Walsh. We will include that in the record of the 
hearing.
    [The information follows:]

   Plan of NSF Toward Doubling or Tripling of the Budget in a 5-Year 
                                 Period

    The President's proposed budget for NSF shows a 2% increase 
in the out years. NSF supports the Administration's budget 
plan.
    NSF believes that increased resources for science and 
technology development are essential to ensure that the U.S. 
maintains its world leadership in these areas. Indeed, this is 
an Administration priority. NSF is discussing with the National 
Science Board long range plans for providing the resources 
necessary to meet these future needs.

                   NFS'S PROPOSED 17 PERCENT INCREASE

    Mr. Mollohan. The 17-percent increase is a large increase 
just in absolute dollar amounts. How are you going to manage 
such an increase?
    Ms. Colwell. I have found since my arrival at the National 
Science Foundation, a year and a half ago, that it is an 
extraordinarily well-run agency. I did not have any fixing-up 
to do.
    I think the record stands for itself. We just awarded a 
billion-dollar contract for the operation of the Antarctic 
program. That has been very successful. The refurbishment of 
the South Pole Station is on time. It is within budget. We have 
managed very large facilities such as synchrotrons, cyclotrons, 
telescopes, and ships.

                  NSF'S ADMINISTRATION AND MANAGEMENT

    Mr. Mollohan. And you have adequate staff to do that now, 
right?
    Ms. Colwell. Yes, but we are asking for an increase in 
administration and management for the very reason that we want 
to stay at the cutting edge of management capability and 
accountability, and we would like to modernize our computers. 
We intend to make the FastLane flawless within the next year or 
two, at least as close as we can do that.
    This is, by the way, pioneering work. There is no other 
agency that has moved so far in the direction of electronic 
submission of proposals, reviews, and so forth. We are breaking 
ground.
    Mr. Kelly. At the same time, there has been no increase in 
the FTEs over a period of a couple decades. If you had a 
business corporation that expanded in size and complexity of 
this nature and had the same level of employees, you would see 
it as an extraordinary accomplishment in efficiency, and at 
some point, you are pushing the boundaries of what really can 
be done efficiently.
    Mr. Mollohan. Is that what we are seeing here, an 
extraordinary accomplishment in efficiency? Because you are 
asking for a five FTE increase to manage the 17-percent 
increase in your budget.
    Ms. Colwell. We are asking for overall A&M of about, I 
think, 13 percent, and that will enable us to go further 
electronically. It will allow us to tap a source of personnel 
that has turned out to be extraordinarily successful, and that 
is the IPA, bringing in scientists who work for a period of 2 
or 3 years, and then return to their universities.

                     INCREASED USE OF IPA PERSONNEL

    Mr. Mollohan. Are you going to increase the IPA program?
    Ms. Colwell. Yes, sir.
    Mr. Mollohan. Where is that reflected in your budget?
    Ms. Colwell. That is reflected in the A&M.
    Mr. Mollohan. How big an increase are you asking in A&M?
    Ms. Colwell. That increase is more than 13 percent overall.
    Mr. Mollohan. So that is where you are going to get the 
additional personnel to manage this overall request?
    Ms. Colwell. Yes, sir.

                INCREASED NSF TECHNOLOGICAL CAPABILITIES

    Mr. Mollohan. You indicate that you are working to increase 
your technology----
    Ms. Colwell. Yes, sir.
    Mr. Mollohan [continuing]. Capability in order to help 
manage this increase?
    Ms. Colwell. That is right.
    Mr. Mollohan. Can you talk about that just a little bit for 
us?
    Ms. Colwell. Yes. We need to upgrade computers. We are 
going very strongly to video teleconferencing. We would like to 
have most panel meetings eventually by video teleconferencing, 
which means that people do not have to travel long distances, 
but can actually, face to face, interact.
    Mr. Mollohan. That does not go to management tasks.
    Ms. Colwell. Yes, but also travel is important for program 
officers to get out in the field, to visit, to understand who 
is doing what and where and who are the key scientists, and 
identify the young scientists viewed in their own mileau and to 
be able to appreciate their talent. Then, when their proposals 
come in, to be better able to evaluate them. This is very 
important, especially for those universities not in the top 100 
in funding, but have extraordinary talent as good as in other 
institutions. It is important to visit and also to have 
workshops so that we can explain to young scientists how the 
Foundation works and to have oversight through the OIG office.
    Mr. Mollohan. Right, but are you seeking upgrades in your 
technology to help you administer----
    Ms. Colwell. Yes, sir. Computers, the telephone system, 
which is sort of archaic. We have got to improve them and our 
message-centering. We have already improved an area in the 
first floor of our building for meetings and workshops, which 
much enhances our capability.

                        SOURCE OF IPA PERSONNEL

    Mr. Mollohan. Where are these IPAs principally coming from? 
Do they typically come from certain agencies or the private 
sector?
    Ms. Colwell. They come from the private sector and 
universities. We work very hard to bring in good scientists and 
engineers from institutions that are not represented in the top 
100 because that is a good mechanism for people to understand 
how the agency operates, to go back and then serve as a mentor.

                    NSF ADMINISTRATIVE REQUIREMENTS

    Mr. Mollohan. I am just inviting you to tell me, to tell 
the committee what you need. You are asking for a 17-percent 
increase in your budget, and these IPAs are not coming over to 
help you manage the administrative paperwork, are they?
    Ms. Colwell. We will in the future very clearly need 
additional personnel.
    I would like to point out that I have discovered that the 
overhead, or the operational costs of running the agency, is 
somewhere between 5 and 8 percent. I challenge any other agency 
and many universities to be that efficient, but I think we want 
to make sure that we stay efficient and effective----
    Mr. Mollohan. Okay, and everybody shares that belief.
    Ms. Colwell. Yes.
    Mr. Mollohan. So how are you going to do that? Your 
administrative costs are going to fall, I would say, if you do 
not ask for any increases, far below the amount you are going 
to have to manage. Is that not correct?
    Ms. Colwell. We have also asked for the ability to propose 
those who are doing travel research-related in the directorates 
to be able to get permission to use funds in the directorate 
for them to travel, which will allow us then to be able to use 
the A&M funds for personnel.
    Mr. Mollohan. Back out with some funds in order----
    Ms. Colwell. Yes, and that is a request, sir.
    Mr. Mollohan. But you are still not asking to hire any 
additional FTEs besides five.
    Ms. Colwell. In this budget, yes, but it would be helpful 
in the future to have additional funds.
    Joe, do you want to comment?
    Mr. Bordogna. The big process that is going on here is the 
reinvention of how we do our business. We are very carefully 
plotting out what we really need after we do the transition 
from the mainframe, the software, to the server-based 
environment, to the training of people we have on board to use 
new technologies, a better sense of how the agency should be 
operated for the next decade with an electronics base. It would 
really be spectacular. At the end of this year, we are hoping 
to be totally electronic in a very complex organization where 
we receive these proposals and so on. So we are trying very 
carefully.
    This year, the capital to make the investment to change the 
technologies and to train the people, et cetera, is very 
critical. We ask for a small increase in FTEs. We are going to 
use the IPA mechanism for the moment to expand, especially in 
the initiatives.
    For example, in information technology research, we are 
going to bring in several IPAs who are expert in the field in 
which the ITR is focussed, and, of course, what is nice about 
that from a management point of view is after 2 or 3 years, 
they go back we have reinvented the place and appoint a new set 
of IPAs. So it is a very fluid situation which we are going to 
be in forever in that sense. We want to prepare for that new 
kind of operation. Then we are going to need new FTEs. Right 
now, we need to bring in very carefully selected, very 
carefully trained people from the outside, plus the fact that 
bringing people from the outside gives us a fresh look at 
things.
    It is a systemic look at how we reinvent the way that a 
Federal agency does business. We are hopeful we can be a model. 
We are very intense in that. The big need is the capital to 
make the change.
    We have been 10 years trying to move from a mainframe to 
the server environment. In fact, FastLane--one of the big 
problems with FastLane is as we do more and more of this, 
everybody waits to the last minute to submit their proposals. 
Instead of FedEx trucks coming and piling paper, the FastLane 
servers slow down. We are trying new kinds of receipts and 
going by time zones for submissions. In the end, we will have a 
new method of operating an agency, and we are excited about 
that, too.
    Ms. Colwell. Let me give you some numbers. We receive 
30,000 proposals every year, and each proposal goes out for 
multi-reviews. We have 50,000 people doing reviews, and we do 
about 250,000 reviews every year, and we fund 9,000 of those 
proposals, which means we do not have enough money to fund all 
the good proposals. In any case, that gives you a sense of the 
volume of traffic that we have in reviews of proposals and so 
forth.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Walsh. Thank you.
    Mr. Hobson.

                      federal support of research

    Mr. Hobson. Good morning. You have a nice agency.
    Let me philosophize for a second. Then I will ask you two 
questions.
    I think we are winning while losing in some respects. You 
remind me, kind of, of the New York Yankee team, Steinbrenner 
who goes out and he gets all the great people to win the 
pennant now, but I am worried about the pennants in the future 
in the farm system, and I think you are, too, in a way.
    I sit on Defense Appropriations. If you look at the Air 
Force research budget today, it used to be equal to both the 
Army and Navy together, and today, they are both, I think, 
ahead of the Air Force singularly today.
    So much of this basic research that went on there that was 
transferred into the private sector and elsewhere is not going 
to happen, I don't think.
    I represent Wright-Patterson. So I have a parochial 
interest in seeing that labs all over the country continue. So 
I look at this a little differently than maybe some other 
members.
    What concerns me is I do not think the private sector is 
going to pick up this kind of research and development because 
they have quarterly earnings. I am not sure where we make it 
up, whether we make it up with you, but I also see one other 
thing happening. I see these wonderful, neat technological 
advances happening, and you are on the cutting edge of a lot of 
things, but when I go home to my community, I find a larger 
percentage than I would like to believe are not literate and we 
are not doing things in those areas.
    So we have all of these wonderful things over here that we 
are funding, and yet, we have all of these young kids smoking. 
You just walk through Wal-Mart today and see these young people 
smoking. You just want to go up and say, ``Hey,'' and I cannot 
do that. I am the grandfather type now, and they do not react 
to that very well.
    But we seem to have all this technology over here and we 
fund it, but over here, we don't. I can tell you that most 
universities and research institutions in Ohio visit me to 
demonstrate the importance of the funding that you all do and 
take a manufacturing environment that we have like in Ohio and 
bring it into the modern age. Obviously, you share this because 
you have requested $3.54 billion for research and development.
    I would like to know a little bit more about how you are 
going to get into this research at the universities, and I can 
see that most of it is directed at computer information, 
engineering, mathematical and physical science. Can you 
elaborate a little on that?
    Respond to me about Secretary Cohen's thing, which I do not 
and other Secretaries say they do not really agree with that 
the private sector is going to pick this up.
    Ms. Colwell. Absolutely, you are correct that the private 
sector, of necessity, has to be doing research with a short-
term payoff, and this is very obvious when one visits even 
places as advanced as Microsoft and Intel. They are really 
working on what is the next product.
    The basic research----
    Mr. Hobson. Microsoft may be working on something else 
today. [Laughter.]
    Ms. Colwell. Probably not the best example after today's 
headline, but it is very critical to do the basic research, 
which is why it is so frightening to hear the numbers that Dr. 
Kelly gave us in that, 20 to 30 years ago 60 percent of basic 
research was federally funded. Now it is down to something like 
27 percent.
    What is even worse is that the percentage that 
physics,chemistry, and mathematics and engineering--has dropped from 50 
percent to as low, in some cases, as 22 to 27 percent. That means that 
the fundamental research in engineering and in chemistry and physics 
needs to be supported because the breakthroughs, the applications are 
unforeseen.
    The person working in a physics lab on a laser instrument 
had no idea that this would lead to absolute cutting-edge 
surgery for cataracts. That was not the intent. It was 
fundamental research. Doppler radar--for example. There are 
just a lot of examples.

          DEVELOPING EARLY INTEREST IN SCIENCE AND ENGINEERING

    Mr. Hobson. If you go into the high schools today, you do 
not find a large number of young people thinking about 
engineering degrees.
    Ms. Colwell. Right.
    Mr. Hobson. You do not see them in physics.
    We found some wonderfully bright kids or young people, but 
there is not the large number. I understand the Egyptians were 
here last week, and they went out to AOL and they said, ``We 
are graduating 600,000 engineers a year. You do not have to 
have the work here. Just put it online and send it to us in 
Egypt,'' and that is the kind of thing we face if our young 
people do not get into it.
    Ms. Colwell. Yes. I call the grades of four to nine the 
``Valley of Death.'' Kids are interested in science and they 
have fun doing science, asking questions, up until about the 
third or fourth grade, and there seems to be a deflection away.
    We have done several things. Let me describe the GK-12 
program, which is designed to support graduate students in the 
fundamental sciences and engineering. Their tuition and fees 
are paid, and they receive a stipend. They do their teaching in 
the local elementary, middle, and high schools. This program 
has begun, and it is very successful.
    We had a meeting just this last week of students and 
teachers involved in the program. These are very, very good 
students in physics, math, and chemistry. Some may go on to be 
high school teachers or grade school teachers, but if we turn 
them into good civic scientists, as my predecessor Neal Lane 
said--a phrase that he coined--so that they will be active in a 
PTA, they will be involved in their schools, that will be a 
good outcome.
    In any case, they provide role models for these kids. A 
child in the second or third grade probably thinks that an 
engineer drives a train and that is about it. But in fact, a 
young engineering student helping the teacher in devising and 
preparing material to teach, and being involved in the 
teaching, is role model and serves to bring together the 
university, the researchers, and the kids.
    But we have other programs like that. In the H1-B visa 
program, those funds provide a whole series of fellowships 
awarded to a variety of 2- and 4-year institutions, all across 
the country. I am very pleased that----
    Mr. Hobson. But I want to ask you a little bit about those.
    Ms. Colwell. Okay.

          PARTICIPATION OF UNDERREPRESENTED GROUPS IN SCIENCE

    Mr. Hobson. In your request for human resource development 
account for $81.8 million, according to the justification, the 
purpose of this funding is to increase the participation in the 
advancement of under-represented groups and institutions at 
every level of science, math, engineering and technology 
education.
    I represent the oldest historically black college in the 
country, Wilberforce, along with Central State, which is a 
State school, and I am interested in those because I do not 
think we have funded enough in the historically black schools 
in the science and technology and encouraging the excellence 
that we should.
    So are you going to be able to fund more of those programs?
    Ms. Colwell. Yes. In fact----
    Mr. Hobson. They need some assistance in figuring out what 
ones they should go after and how they do this. They do not 
always have quite the grant writer experience that some of the 
other institutions do.
    Ms. Colwell. We do have workshops, but I am happy to report 
to you that Wilberforce University does have a grant.
    Mr. Hobson. You must have had that already.
    Ms. Colwell. Yes. High-resistance layers, layers by ion 
implantation in devices. So it is an award to the university. 
Other universities--Central State University, I believe, is 
also being considered.
    They simply came in with a proposal. It was competitively 
reviewed and awarded. What we do is have workshops to go out to 
different parts of the country to explain to institutions how 
you go about preparing a proposal, one of the things that they 
do not seem to understand. Most of the institutions are not 
ranked in the top 100, not just the historically black 
institutions. It is perfectly all right to call the program 
office, and discuss the proposal. So that, if there are some 
misunderstandings, they can be avoided before the proposal is 
written and submitted. We try very hard to communicate with our 
constituents.

              NETWORKING WITH THE UNDERREPRESENTED GROUPS

    Mr. Hobson. I think there also needs to be some networking 
in that arena, too.
    Ms. Colwell. I agree.
    Mr. Hobson. It is not quite there. Some of the other 
institutions do network very well.
    Anyway, thank you very much for all you have done. I am 
sure I speak for Vern Ehlers who, if he were here, would 
commend you for your work and ask for even more money for you.
    Ms. Colwell. Well, I like his ``Valley of Death'' symbolism 
and I applied it not just to technology transfer, but to 
``technology people'' transfer.

                    CENTER FOR LEARNING AND TEACHING

    Mr. Hobson. I would just like to focus that we really need 
to get at these young children because if they do not learn to 
read by about the third or fourth grade, we are in real 
trouble.
    Ms. Colwell. Yes.
    Mr. Hobson. When you try to teach them in high school or 
you try to get them as adults, you have lost them.
    Ms. Colwell. We are establishing Centers for Learning and 
Teaching, and these centers are styled after the Engineering 
Research Centers, and Science and Technology Centers, which are 
highly focused on research. These will be focused on getting at 
how do kids learn how to improve their ability to do science 
and mathematics, and how to teach better.
    Mr. Hobson. NASA has got a program called SEMA that we have 
had a wonderful success rate in my district, which does not 
send many kids on to college like they should.

                        NSF Systemic Initiatives

    Mr. Kelly. We have also the Urban Systemic Initiatives, the 
Statewide Systemic Initiatives, and the Rural Systemic 
Initiatives. They have shown dramatic progress in some of our 
largest urban school districts. For the first time, we are 
seeing this with the Department of Education. For the first 
time, we are seeing some light at the end of that tunnel, but 
it is a resource allocation question as well.
    Just as you are into it in some of these other areas and 
some of the pathologies of society, we really have to take a 
more analytical and larger approach with respect to the full 
spectrum of the social sciences which NSF is also responsible 
for. Some of our most serious problems in the society relate to 
education, as you were talking about, but also a variety of 
other areas in social sciences.
    Mr. Hobson. Thank you very much.
    Mr. Walsh. Thank you
    Mrs. Meek.

              NSF's Involvement with Minority Institutions

    Mrs. Meek. Thank you, Mr. Chairman.
    Welcome to each of you.
    Ms. Colwell. Good morning.
    Mrs. Meek. I listened with interest to Mr. Hobson's 
questions regarding the minority institutions. I am sure that 
you recognize the workforce diversity that you are facing. It 
is very important that NSF face that very strongly in terms of 
training minorities and providing graduate education.
    Each year when you come before this committee, I ask you 
questions regarding graduate education in minority 
institutions. It is extremely important. Your record has been 
fairly good, but it does need improvement in that regard 
considering the diversity which we all see.
    I work very closely with NAFIO and the historical black 
colleges and universities, and I noticed in your budget 
request, you fund most of their proposals out of two accounts. 
I would like to know the level of funding that you are offering 
this time, that you are requesting this time for NAFIO or the 
historically black colleges and universities.
    It is very hard to keep track of your year-to-year funding 
of these programs. I know NAFIO requested $20 million, and I 
just need to know from you----
    Ms. Colwell. Yes. I am going to turn to Judy Sunley for the 
exact numbers. Dr. Sunley is the AD of the Education and Human 
Resource Directorate.
    Ms. Sunley. The historically black colleges and 
universities undergraduate program will be funded at a total of 
$11 million in fiscal year 2001. $8 million of that is coming 
from the education and human resources directorate. $3 million 
of that will come from the R&RA accounts.
    In addition, the other large program that funds activities 
at historically black colleges and universities is the Centers 
for Research Excellence in Science and Technology or CREST. 
That also includes funding for Hispanic-serving institutions.
    That program, I think in the HBCU area, is on the order of 
another $7 or $8 million. I am not absolutely positive about 
that.

                National High Magnetic Field Laboratory

    Mrs. Meek. All right, thank you.
    Along that line of questioning, from my tenure in State 
legislature, I was involved in a Mag lab at Van U. and FHS.
    Ms. Colwell. Yes.
    Mrs. Meek. There was always a problem in terms of the 
distribution of faculty and other kinds of things split between 
two universities.
    My question is: How do you feel about expanding this Mag 
lab and investing in new equipment and longer-lasting times? 
Also, the distribution of faculty and research fellowships at 
the Mag lab, that is a provincial question regarding what is 
going on in Florida with this Mag lab.
    Ms. Colwell. One of the important developments is that 
right now the Mag lab currently supports about 22 graduate 
students under an NSF grant. This also includes State of 
Florida funds. Five of these are FAMU and Florida A&M 
University students.
    They are now looking into joint appointments, which for the 
faculty of both institutions would be a very good step forward. 
The joint appointments would be integrated into research 
activities of the high-magnetic-field laboratory. They will 
have all the advantages of both institutions and the program is 
moving forward.
    I would say also there is a proposal that has come in from 
the Mag lab in March, 2000. We have a panel of eight scientists 
and engineers from outside the Foundation reviewing the 
proposal. They will conduct a 2-day site visit. The budget 
requirements in the request will be evaluated, and after the 
review, I will be able to report to you.
    Mrs. Meek. Thank you for that because there appeared to be 
an unequal distribution of faculty and research fellows between 
those two universities.
    Ms. Colwell. I had a very, very good discussion with the 
president of Florida A&M, a remarkable individual.

                Environmental Problems in the Ecosystem

    Mrs. Meek. Yes.
    To your group, you talk a lot about biocomplexities.
    Ms. Colwell. Yes, ma'am.
    Mrs. Meek. We have them as policy-makers. We have some very 
pragmatic decisions to try to make in working on things that 
this Congress funds.
    For example, I am in a class right now and I am not sure I 
have the problem-solving skills. My question to you is: What, 
if anything, can the National Science Foundation do? What can 
science do to do research in ecosystems in terms of--is there 
any set of systems that you can come up with that makes our 
decision-making easier?
    For example, right now, there is a problem wherever there 
is, for example, a development or an--what I am trying to 
reach, I have not gotten it yet. An airport.
    Ms. Colwell. Yes.
    Mrs. Meek. Okay. The environmentalists are on one side, and 
the developers are on the other side. The developers are 
looking for economic development. The environmentalists 
sometime have a vague, but very strong reason, why this should 
be done.
    My problem is, as someone who has worked with the Congress 
representing that area, I do not see any set of systems that 
leads you to the science to be able to do decision-making, 
intelligent decision-making.
    What has NSF thought about in terms of resolving these 
environmental problems in the ecosystems?
    Ms. Colwell. We are taking a dual approach in the 
initiatives. In the case of the information technology, we have 
received about 2,000 of pre-proposals, whose requests total 
over $3 billion. Awards will be made in the fall. Some of the 
outcomes would be ecological simulation and modeling of entire 
regions to help anticipate the effects of development. In the 
biocomplexity initiative, precisely being able--and I like to 
use the Inter-County Connector between Maryland and Virginia. 
As a local example, they are trying to make a decision as to 
whether they should build an outer beltway and where to locate 
it.
    If we accomplish the biocomplexity initiative, probably we 
would be able to put into that database the weather patterns 
for the past 100 years in that area. We would be able to put 
the demographic predictions for that area into the database. We 
would be able to take the aquatic vegetation, the watershed 
data, put all of that together, and then to be able to say if 
you put it there, these will be the outcomes, if you put it 
here, these will be the outcomes. In other words, in sum, to 
provide a scientific underpinning for decision-makers. That is 
what we hope to achieve through both of these major initiatives 
and we believe it is what the country really needs.

                NSB ENVIRONMENTAL AND ENGINEERING REPORT

    Mrs. Meek. Thank you.
    My next question has to do with the report, the 
environmental science and engineering report.
    Ms. Colwell. Yes.
    Mrs. Meek. It was made to the National Science Foundation. 
To what extent are you going to follow some of the 
recommendations, and if so, would you tell me how you are going 
to do that?
    Ms. Colwell. Yes. We have already begun the process of 
management. We have designated Dr. Margaret Leinen, the new 
Assistant Director for the Geosciences, as the coordinator for 
the biocomplexity initiative. She is a geoscientist and was 
Dean of Oceanography at the University of Rhode Island, and 
subsequently a senior administrator across the university.
    She has put together a team with representatives from each 
of the directorates because this is an environmental 
initiative, the biocomplexity initiative, it cuts across all 
disciplines. There are physicists who can contribute. There are 
mathematicians with models who can contribute. With 
representatives from each of the directorates, and with each 
directorate's advisory committee designating a person to be 
their representative, we will be able to reach the outside 
community and the internal organization.We will be able to 
bring all of this to bear on ensuring that the management and 
the oversight of the biocomplexity initiative is strong, 
powerful, and responsive.
    We have already made some initial awards in FY99, and these 
researchers are already studying because we focused on----
    Mrs. Meek. Does that include the $50 million which you have 
recommended?
    Ms. Colwell. That is in FY2000 and those awards have been 
made. If all goes well, we will be moving along toward, as I 
described for the Inter-County Connector, building databases.
    There is another very important initiative that is in major 
research equipment, the National Ecological Observatory 
Network. This is to build a network of stations all across the 
country, some of which are already in place and perhaps some 
more may be started. They might be field stations in the marine 
sciences or they could be desert laboratories. They will 
compete to commence. We can equip them all so that they have 
connecting apparatus to be able to communicate through 
electronic means, and build databases for the entire country 
that will provide us with the ecological strategy for the 
future.
    Mrs. Meek. So you are taking some leads from that report--
--
    Ms. Colwell. Yes, we are.
    Mrs. Meek [continuing]. In terms of applying it to the 
funding?
    Ms. Colwell. We are, indeed, Congresswoman.
    Mrs. Meek. Thank you.
    Thank you, Mr. Chairman.
    Mr. Walsh. You are welcome. Thank you.

                MEASURING THE CONTRIBUTIONS OF GRANTEES

    Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Dr. Colwell, Dr. Kelly, as you can see, there is a high 
level of interest in the work of your agencies. I think in some 
respects both the National Science Foundation and the National 
Institutes of Health somewhat become favorite institutions in 
the Congress, and I think for good reason. I think we are 
making the right types of investments.
    I just have a couple of general questions. Focusing for 
just a minute on your testimony, Dr. Colwell, and I quote, 
``Individual scientists and engineers supported by the NSF are 
using their talent and freedom to create, discover, and 
innovate,'' and you go on and say, ``Increasingly, these 
scientists and engineers and perhaps even more, their students, 
are making the jump to the private sector,'' and then you talk 
in the next paragraph, ``The transfer to the private sector of 
people''--you have that in italics--``first supported by the 
NSF at universities should be viewed as the ultimate success of 
technology transfer,'' and we talk about creating wealth.
    I would like to know whether there is a way to measure the 
contributions that we have given with our tax dollars in these 
specific men and women who receive these coveted awards at 
universities.
    I am a believer--I am sure most of us here--in the whole 
issue of give-back.
    Ms. Colwell. Yes.
    Mr. Frelinghuysen. I just wonder--and I do not want a 
lengthy answer--whether in the overall scheme of things, 
besides obviously job creation, wealth creation, the ingenuity 
that we celebrate, whether some of these people--and you 
mention the firms here, Lycos, Excite, Infoseek--are doing some 
things charitable in other ways, working with our universities. 
Just very briefly, I would like to know whether that is part of 
it.
    Ms. Colwell. Yes. Indeed, I think we are finding this 
particularly in the educational arena. They are very concerned, 
as we are, about science and math literacy of our next 
generation. These people--not only the companies partnering 
with us, are increasingly involved in the school systems and in 
the school efforts.
    Let me just give another perspective because we are doing a 
lot of things. We are going back, for example, on the occasion 
of the fiftieth anniversary to look at what those people are 
doing or did whom we funded 50 years ago, and it has been very 
heartening because----

                           PATENT DEVELOPMENT

    Mr. Frelinghuysen. I think the history lesson--it is 
important to figure out who has done what and celebrate that 
fact, but I am not suggesting that you view in your grants some 
sort of a civic responsibility, but if in fact some of these 
people have been enormously successful. I hope somebody out 
there is pricking their conscience so they in fact can somewhat 
give back to our society.
    Ms. Colwell. I agree.
    Mr. Frelinghuysen. And if it is not being done, I am not 
suggesting that you need to be involved in social engineering 
here, but I do think in some ways that ought to be part of the 
message.
    Ms. Colwell. The short answer is yes, we are seeing greater 
involvement and concern and participation in the educational 
programs.
    Then I would have to answer the fact that we have looked at 
just things like patents. We have found there has been a 50-
percent increase 10 years ago, and then another 50-percent 
increase in the last 2 years to university-based research cited 
in patents.
    Now, that is not the people approach, but it demonstrates 
that in fact there is this connectivity which is critical.
    Mr. Frelinghuysen. For many of our constituents that they 
often focus on the patent issue----
    Ms. Colwell. Yes.
    Mr. Frelinghuysen [continuing]. And whether in fact we 
assume that the universities benefit. I assume there are other 
private entities that benefit from those patents as well and 
their partnerships here and collaborations.
    Ms. Colwell. Yes. Then I would also add foundations that 
have been formed.
    Mr. Frelinghuysen. Yes.
    Ms. Colwell. They are being collaborative.

              evolution of NSF's programs and initiatives

    Mr. Frelinghuysen. I thought I would put it on the radar 
screen. I do have limited time.
    I would like to know, since we started down this path, what 
specific research programs and former initiatives have been 
somewhat terminated. I sort of get the feeling that there have 
been some winners and losers, maybe not losers, but some 
programs have fallen by the wayside as you embrace, in your 
words, exciting new cutting-edge technologies.
    A couple of years ago, I assume, Neal Lane was here talking 
about similar cutting-edge technologies.
    Ms. Colwell. Yes.
    Mr. Frelinghuysen. I assume the NSF embraced them.
    Ms. Colwell. Yes.
    Mr. Frelinghuysen. We supported them. I just wondered if 
there was something we can have for the public record here 
which might show us.
    Ms. Colwell. Yes, I think it is not a stop-start situation. 
What you have to understand is that it is an evolution. There 
were programs in the past, for example, LEXEN, Life in Extreme 
Environments, specifically targeted programs. These have 
actually evolved into the biocomplexity initiative. So it is 
not that we have gone to this point, topped it off and said it 
is finished. In fact, these programs provide new discoveries 
that then evolve into the next phase or the next iteration, if 
you will. So we are always building on the history of 
discovery. We are always building on----
    Mr. Frelinghuysen. Well, I understand that notion and what 
you are saying is reassuring. However, I assume that in some 
instances, some programs have sort of somewhat lapsed--for lack 
of a better word.
    Ms. Colwell. Yes, because the National Science Foundation 
is always seeding the cutting edge.

                   statistics on program terminations

    Mr. Frelinghuysen. I think the committee would find it 
interesting to know if there are some statistics that relate to 
programs and initiatives over the last couple of years that for 
some reason or the other have been terminated or curtailed or, 
for that matter, interwoven with other programs.
    [The information follows:]

                 Evolution of Programs and Initiatives

    NSF has terminated specific programs or projects on 
occasion. For instance, the Science and Technology Centers 
initiated in FY 1989 had a planned 11-year life span, and 
funding for these centers is not being phased out. However, 
many changes in initiatives represent an evolution of the basic 
ideas and research developed or identified from the earlier 
programs. NSF is always building on the history of discovery.
    One example of such evolution is in the field of computer 
science. The High Performance Computer and Communications 
(HPCC) initiated in 1991, was a 5-year multi-agency R&D program 
focusing on high performance computing and communications 
technologies that could be applied to computation-intensive 
applications. In 1997, HPCC was expanded to include broader 
collaborative investments and its name was changed to the 
Computing, Information, and Communications (CIC) program. In FY 
2001, this program in turn was merged into the Information 
Technology Research Initiative.

                 increase in graduate research stipend

    Ms. Colwell. Well, good, if you include the latter. Yes, we 
would be very happy to----
    Mr. Frelinghuysen. And I have some specific questions 
relative to graduate research fellowships. For many years--and 
correct me if I am wrong--the most prestigious Federal 
fellowship for pre-doctoral study in the sciences has been the 
NSF's Graduate Research Program. These fellowships are 
specifically provided to attract, and I quote, ``the best and 
brightest'' in your graduate study in science. The NSF conducts 
an annual competition among students, which is very much like a 
national science talent search. Students who are selected may 
take the award to any university they choose, and they are 
assured of three years of support.
    In the past, the NSF has offered a competitive stipend, but 
in recent years, the stipend has been held at $15,500. 
Currently, the Department of Agriculture, NASA, and the 
Environmental Protection Agency all offer pre-doctoral stipends 
of $22,000. The DOD offers stipends between $19,00 and $21,000. 
Even your agency is offering, as I understand it, $18,000 as a 
stipend in the K-12 program or GK-12 program for graduate 
students. This year the Foundation is proposing to increase the 
GRF stipend to $16,200 by cutting the number of fellowships 
available from 900 to 850.
    The questions I have: Shouldn't the stipends in the GRF 
program need to be increased to at least $18,000 in order to 
continue to attract the most outstanding students into further 
study in the sciences?
    Ms. Colwell. As a parent whose child was a recipient of 
such a fellowship, I can only say yes. Indeed, it should be 
increased, and we are trying to increase it, but within the 
budget constraints, that was----

            priority of graduate research fellowship program

    Mr. Frelinghuysen. Well, is it the budget constraints or is 
there--are these other new starts of greater priority?
    Ms. Colwell. No, I don't think it's a matter of a greater 
priority. It is trying to do as many things as we can do. This 
is clearly a priority, increasing the stipend, and the only way 
that we could squeeze it into the budget is by reducing the 
number.
    Mr. Frelinghuysen. So we are going to squeeze in a higher 
number, but there is no possibility of doing more.
    Ms. Colwell. We would like to do more, but this is the 
budget request that we put forward.
    Joe, do you want to comment on that?
    Mr. Bordogna. Over the years, it has been an important 
issue, so, yes, definitely. Even $21,000 is too low from our 
point of view, and we are trying to move that up. In fact, the 
GK-12 was made $18,000, so that we could have a good reason to 
pull the rest up with it.
    But there is another issue here, too----
    Mr. Frelinghuysen. Other departments have priorities. They 
work them out. I assume that they work out priorities at Ag and 
NASA and EPA for pre-doctoral stipends. I assume you have that 
ability to maneuver.
    Mr. Kelly. No, we don't have the substantial levels of 
resources that those other agencies have, so your flexibility 
is greatly a function of size of total resources. So our 
degrees of freedom are considerably less than those agencies, 
which is the problem we talked about earlier.
    Mr. Frelinghuysen. Well, as we give you a 17.5 percent----
    Mr. Kelly. That is going to help.
    Mr. Frelinghuysen [continuing]. Increase and for the first 
time we learn today that you are seeking to double your budget 
in 5 years. That is, I think, somewhat reflective of what we 
want to do with National Institutes of Health. I hope in the 
overall scheme of things that this doesn't get put in the back 
drawer.
    Mr. Kelly. No, it will not.
    Ms. Colwell. No, sir.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Walsh. Thank you.
    Mr. Cramer.

                 ADVANCED TECHNOLOGY EDUCATION PROGRAM

    Mr. Cramer. Thank you, Mr. Chairman.
    Welcome back to the committee, all of you. I am a strong 
supporter of basic research funding and have enjoyed my 
relationship with the National Science Foundation, both on this 
subcommittee and when I was on the Science Committee as well.
    I represent an interesting and challenging district down 
there in north Alabama, and we have two Historically Black 
Colleges and Universities, two engineering schools, community 
colleges, and yet we are challenged to train and educate 
today's workforce there. So first I want to direct you to the 
Advanced Technological Education Program. Can you talk about 
this program and other ways that NSF is helping to prepare our 
citizens for this high-tech workforce that we need for the 
future?
    Ms. Colwell. We are working very hard to provide 
scholarships and fellowships to students particularly to bring 
them into the information technology arena. These jobs pay 60 
percent, on average, more than other jobs. It is the knowledge-
based future that we are going into.
    So we have been able to fund through the Advanced 
Technological Education Program a number of institutions to 
assist students to be able to earn degrees at 2- and 4-year 
institutions, and at Historically Black Colleges as well. As a 
result these students are able to be fully participatory in the 
information revolution.

                      FUNDING FOR THE ATE PROGRAM

    Mr. Cramer. You have $39 million budgeted for this program?
    Ms. Colwell. Yes. Again, I'm going to turn to Judy because 
she has all the numbers right at her fingertips.
    Ms. Sunley. The Advanced Technological Education Program 
was aimed at the transition between high school and 2- and 4-
year colleges. It focuses on various areas of technology. It 
will increase by $10 million in Fiscal Year 2001 over Fiscal 
Year 2000. That will bring the total to about $40.7 million.
    The activity will create emphasis areas really for the 
first time in Fiscal Year 2001, in areas like information 
technology and manufacturing, to attempt to address what people 
regard as some of the most serious near-term workforce issues.

                               ATE AWARDS

    Mr. Cramer. How will you use that funding? Is it 
competitively awarded?
    Ms. Sunley. It is competitively awarded.
    Mr. Cramer. How many grants exist now or in the last year, 
generally speaking? Lots?
    Ms. Sunley. Lots, yes. [Laughter.]
    Mr. Cramer. That is the kind of answer I was looking for.
    Ms. Sunley. We have about 10 Advanced Technological 
Education Centers that are fairly large awards that, in 
addition to doing educational activities in their regional 
area, do work on national standards and curriculum development 
that gets disseminated nationally.
    In addition, there are a much larger number of smaller 
awards that are focused on local and regional issues.

                 PROPOSED FY 2001 ATE FUNDING INCREASE

    Mr. Cramer. Did I hear you say you hoped to get an increase 
of $10 million?
    Ms. Sunley. $10 million.
    Mr. Cramer. And will you do more of the same with the $10 
million increase?
    Ms. Sunley. Yes.

              HISTORICALLY BLACK COLLEGES AND UNIVERSITIES

    Mr. Cramer. All right. A few minutes ago in responding to 
Ms. Meek's question, you referred, I believe, speaking of 
Historically Black Colleges and Universities, to the CREST 
program.
    Ms. Sunley. Yes.
    Mr. Cramer. Tell me briefly about that program. And is the 
total funding $7 or $8 million?
    Ms. Sunley. The total program is about $9 million. I think 
the HBCUs are probably somewhere in the neighborhood of 7, 7.5 
of that total of just under 9. Those are roughly $1 million 
awards that allow minority-serving institutions to develop 
centers of excellence in research. The bulk of them--I think 
maybe 10--are at Historically Black Colleges and Universities. 
They are efforts to try to create levels of critical mass in 
Historically Black Colleges and Universities that can lead to 
broader funding opportunities in other NSF center competitions 
or in standard research competitions.

              GRANT WORKSHOPS FOR EDUCATIONAL INSTITUTIONS

    Mr. Cramer. Thank you. And earlier, you referred to your 
grant workshops.
    Ms. Colwell. Yes.
    Mr. Cramer. And I would assume in the competition for these 
grants that some schools are better able to compete than 
others.
    Ms. Colwell. Yes.
    Mr. Cramer. And I would assume that you are being proactive 
in making sure that you cultivate opportunities for those that 
haven't been traditionally funded, that we don't just fund the 
same set of schools over and over again.
    Ms. Colwell. Absolutely. In fact, one of the calls I made 
to the community was to ask for names of individuals from these 
institutions to be recommended by their presidents or their 
deans to serve on our panels, and to serve as reviewers and to 
serve as site visitors. This is an excellent way to learn how 
the process works and then be able to go back to their 
institutions and help the youngsters in their proposal 
preparation, to improve their chances of success.

                             CSEMS Program

    Mr. Cramer. The CSEMS Program, C-S-E-M-S, the Computer 
Science, Engineering, and Mathematical Scholarship Program, how 
is that program working?
    Ms. Colwell. This program, again, is competitive, and the 
awards are made to institutions. For example, the Enterprise 
State Junior College and the University of Alabama at 
Birmingham, both have received awards. And this was competitive 
and they have----
    Mr. Cramer. Are they enjoying those awards right now or----
    Ms. Colwell. Yes.
    Mr. Cramer [continuing]. Was that sometime in the past?
    Ms. Colwell. Right now. Just made March 10th.
    Mr. Cramer. Tell us briefly about that program and what you 
hope to accomplish by the program.
    Ms. Colwell. What we really want to do is to develop a 
cadre of individuals who will enter the workforce, be 
participatory in the workforce, but also to educate them in a 
way that they will be continuously self-learning so that--
because just to teach them how to do today's work on today's 
computer doesn't really mean that they will be able to work on 
tomorrow's and the next day's computer. So we are trying to 
educate these folks in a way that they will then be the 
workforce of the 21st century and continuously self-educating 
or a re-educated workforce.

                 Funding for 2-year and 4-year Colleges

    Mr. Cramer. Now, Enterprise, the school that you referred 
to, that doesn't happen to be in my district, but I believe 
that is a 2-year college. Is that correct?
    Ms. Colwell. Yes.
    Mr. Cramer. What fraction of your research grants goes to 
community colleges as opposed to 4-year colleges? Could you 
give me that information or give me some summary?
    Ms. Colwell. We can get the information to you.
    Mr. Cramer. And I want----
    Ms. Colwell. I will say an increasing amount, because we 
have recognized that important link between high school, the 4-
year colleges, and graduate school being the community college 
as the feeder. So we are aware of that, sir.

       NSF Support for Community Colleges vs. Four-Year Colleges

    FY 1999 support for community colleges totaled $38.40 
million, or 1.1% of NSF support for research and education.

                      NSF FISCAL YEAR 1999 SUPPORT
------------------------------------------------------------------------
                                                In millions    Percent
------------------------------------------------------------------------
Non-Profit....................................       $30.08          0.9
Community Colleges............................        38.40          1.1
4-year+ Colleges..............................     2,577.44         73.3
                                               -------------------------
      Total, NSF Support......................     3,516.86        100.0
------------------------------------------------------------------------

    Mr. Cramer. Well, Boeing is building a commercial launch 
Delta 4 plant there, and they will employ 3,000 people, and 
they are challenged to find a trained workforce. So they are 
turning to the community colleges to train our workforce. So it 
is an interesting blend of making sure those opportunities are 
seeded and cultivated there at that level.
    Before I run out of time--and it is a challenge for a slow-
talking person like me to work in my questions in a limited 
amount of time. [Laughter.]

                         EPSCoR Program Funding

    But your EPSCoR activities----
    Mr. Walsh. With a 3,000-job facility and slow-talking----
    [Laughter.]
    Mr. Cramer. We only have 1,500 jobs right now. EPSCoR, I 
congratulate you there, but I am a little confused. In your 
budget request, it seems that on page 77 you say there is a 
decrease of 6 percent from last year's level of EPSCoR funding, 
but then on page 230, you talk about an increase of $73 
million.
    Ms. Colwell. Yes.
    Mr. Cramer. So I was a little confused by that.
    Ms. Colwell. Well, what we are doing is moving the funds 
directly to EPSCoR, but we are also getting the research 
directorates to be more involved in EPSCoR funding. So the 
total amount that is going to be available is $73 million, and 
that is part of moving the institutions into the open 
competitiveness down the road. So that some institutions are 
really moving along very, very well into the general mainstream 
competition. This is a mechanism so that we can do that, at the 
same time keep the EPSCoR funding up.
    Mr. Cramer. So you are fully committed to EPSCoR.
    Ms. Colwell. Yes, sir.
    Mr. Cramer. Thank you, Ms. Colwell. Thank you, Mr. 
Chairman.
    Mr. Walsh. Thank you.
    Mr. Goode.
    Mr. Goode. Thank you, Mr. Chairman.
    I want to thank NSF for their good work.
    Ms. Colwell. Thank you.

                  Number of Reviewers of NSF Proposals

    Mr. Goode. Let me ask you this: You said you had last year 
30,000 proposals for grants. Right?
    Ms. Colwell. Yes, sir.
    Mr. Goode. And 9,000 were funded.
    Ms. Colwell. Yes, sir.
    Mr. Goode. And you had 50,000 people reviewing the 
proposals. Is that right?
    Ms. Colwell. Yes, sir.
    Mr. Goode. Of the 50,000 reviewers, are any of them paid or 
are they all just volunteers?
    Ms. Colwell. They are all volunteers, sir. It is an 
incredible involvement of the community.
    Mr. Goode. Where did the 50,000--did they all come from 
universities and colleges?
    Ms. Colwell. No. Some come from industry. We just had an 
XYZ on a Chip Panel meeting, and there were two or three 
industry participants. This is very appropriate because of the 
close ties between technology and industry.
    There would be from the community--scientists--and in the 
education arena, there will be teachers.

                    REVIEWERS FROM PRIVATE INDUSTRY

    Mr. Goode. Just ballpark on the 50,000, how many from 
private? They get their primary paycheck from a private source, 
just ballpark?
    Ms. Colwell. You mean from a private university?
    Mr. Goode. No, not a private--a private business but not a 
State or a private college. Just ballpark.
    Ms. Colwell. Probably less than 10 percent.
    Mr. Bordogna. From industry, it is very small, and we want 
more from industry, but it is very difficult to convince 
industry still to give their people two or three days off. But 
we are very energetic about wanting----
    Mr. Goode. So of the 50,000 reviewers, you have got 45,000 
at least are either employed by a State institution of higher 
education or----
    Ms. Colwell. Teachers.
    Mr. Bordogna. Universities.

                TOTAL MONEY AWARDED IN GRANTS IN FY 1999

    Mr. Goode. Or universities, public or private.
    Now, how much money last year did you award in grants?
    Ms. Colwell. In grants for research and education, $3.5 
billion.

                    OTHER CATEGORIES OF EXPENDITURES

    Mr. Goode. All right. The other $1 billion that you spent 
last year, just give me the general categories which you spent 
it on.
    Ms. Colwell. These would be major research equipment, would 
be education----
    Mr. Goode. Give me an example or two of equipment you 
purchased.

                            SUPPORT FOR LIGO

    Ms. Colwell. Well, these would be major installations. 
Let's say--I am just trying to think. LIGO, the Laser 
Interferometer Gravitational Wave Observatory.
    Mr. Goode. How much did you spend on that?
    Mr. Bordogna. Well, over a period of some years--we just 
finished up last year. That is our biggest, about $300 million.
    Mr. Goode. Okay.
    Mr. Bordogna. That is the biggest piece of equipment.
    Mr. Goode. And last year how much did you spend on that?
    Ms. Colwell. I think $29--$22 million.

        FUNDING OF PUBLIC VS. PRIVATE COLLEGES AND UNIVERSITIES

    Mr. Goode. All right. Let me ask you this: On the $3.5 
billion in grants last year, you have a listing of every entity 
that you gave grants to, right?
    Ms. Colwell. Yes, sir.
    Mr. Goode. Dividing that $3.5 billion, how many went to 
public or private colleges and universities? Just ballpark.
    Ms. Colwell. Public or private? I would say probably three-
fourths.
    Mr. Bordogna. Three-fourths or more.
    Mr. Goode. Three-fourths or more. And then how much----
    Mr. Bordogna. Primarily the grants go to----

                              SBIR FUNDING

    Mr. Goode. I noticed in your testimony you said not too 
much to industry, so you have got, what, half a billion to $750 
million went to private industry?
    Mr. Bordogna. Oh, no.
    Ms. Colwell. No, no.
    Mr. Bordogna. It is 2.5--I know where you are going. By 
law, 2.5 percent of the R&D line--research and research-related 
monies--is for the Small Business Innovation Research Program, 
and so that is money that goes to the private sector.
    Ms. Colwell. Right.
    Mr. Bordogna. And those are small companies who are trying 
to do research, do a prototype, or move something into the 
marketplace. But it is for research effort. The rest goes to 
universities, colleges, not-for-profits.
    Ms. Colwell. Right.

                         SUPPORT OF FOUNDATIONS

    Mr. Goode. What about not-for-profit entities besides 
colleges and universities? Not much, is it?
    Ms. Colwell. Well, foundations such as the Scripps 
Institute, the Whitehead Institute, and the Wister Foundation. 
There are a number of foundations. There is a foundation in New 
Mexico. These are all funded--I can give you the number. I am 
not sure.
    Mr. Bordogna. We will generate it for you.
    Ms. Colwell. Yes. But it is not in the billion category, 
that is for sure.
    [The information follows:]

             NSF's Funding for Not-for-Profit Institutions

    NSF FY 1999 support for non-profit entities totaled $30.08 
million, or 0.9%, of NSF's total funding support for research 
and education. This includes such entities as foundations, but 
does not include support for entities such as colleges and 
universities.

    Mr. Goode. How many grants--you said you funded 9,000.
    Ms. Colwell. We have 10,000 continuing, so we have roughly 
19,000 or 20,000 grants on-going----

                          LIST OF TOP GRANTEES

    Mr. Goode. Let me ask you this: Could you give me a list of 
the top 1,000 or 2,000 grantees by name and amount?
    Ms. Colwell. Yes, we can do that.
    Mr. Goode. All right. And I won't have to ask you again. 
Just me asking you now, you will give me that list.
    Ms. Colwell. Yes, sir.
    Mr. Goode. All right. If you would do that, I would 
appreciate it.
    Ms. Colwell. We would be pleased to provide the list.
    Mr. Goode. Okay, the top 2,000 or ballpark.
    Ms. Colwell. Okay.
    Mr. Goode. Okay. Thank you.
    [The information follows:]

                        List of Top NSF Grantees

    Information on the top 2,000 NSF grantees is being provided 
directly to Representative Goode.

                 ADVANCED TECHNOLOGY EDUCATION PROGRAM

    Mr. Walsh. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Welcome once again to the subcommittee.
    Ms. Colwell. Good morning.
    Mr. Price. I come from one of those congressional districts 
where people know a great deal about the National Science 
Foundation. It is very important to our museums, our 
universities, our individual researchers.
    In the three research triangle counties that I represent in 
North Carolina, there have been 421 grants in fiscal year 1999 
totaling over $51 million, and I am told that only 13 whole 
States receive as many grants from NSF. So we are heavily 
invested in your work, and we appreciate what you do.
    I would like initially to follow up on Ms. Meek's and Mr. 
Cramer's questions regarding the Advanced Technological 
Education Program and the way that works. That is the main 
vehicle for NSF to work with our many excellent community 
colleges across the country, and you work through individual 
institutional grants to enhance the development of curricula 
and teaching methods and through the establishment of centers 
of excellence, 10 I believe now nationwide, and through these 
2-year, 4-year articulation agreements where you are trying to 
create a seamless transition from 2-year to 4-year schools.
    I introduced the legislation which created the ATE back in 
1991, and I am gratified at the way this program has developed 
over the last 7 years. You can imagine I was disappointed last 
year that the funding was not increased for the program, so I 
am encouraged about this year's recommended increase of $10 
million, a modest but potentially significant increase.
    You gave Mr. Cramer a general answer as to what that $10 
million will let you do, and I know that in your budget 
justification you talk about a new emphasis on information 
technology, on manufacturing, and on teacher development.
    Do you anticipate any change in the mix among program 
components, the individual grants, the centers of excellence, 
the articulation agreements? Are you looking to change that mix 
of activities or anything else you would like to elaborate, 
either orally here or maybe for the record?
    Ms. Colwell. I think what is important is that this program 
fills a gap, and it fills it very well. We will now be 
establishing these Centers for Learning and Teaching. We would 
expect that there would be an articulation between the ATE 
program and the Centers in order to synergize the education for 
those students. As I pointed out earlier, we wanted to make 
sure that these are going to be workforce individuals who will 
be continuously educated. You can't just say we have done it, 
now they are out, they just have to get a job and that is where 
they stay, because the jobs are going to change.
    In fact, we are fully aware that a graduate today from, 
let's say, this May or June can expect to change careers 
anywhere from four to seven times, whereas you and I, when we 
graduated, we expected to do pretty much the same thing until 
we retired. That is not the case now.
    So we have to be continuously reinventing and 
reinvigorating education. So ties to the Centers for Learning 
and Teaching will be very important.
    The mix within the ATE will pretty much stay the same, at 
least for the next few years.
    Mr. Price. These centers for teaching and learning, that is 
distinct from the centers of excellence within the ATE program?
    Ms. Colwell. Yes.
    Mr. Price. All right. And the funding for that is not part 
of the ATE budget?
    Ms. Colwell. No, sir.

                             CREST Program

    Mr. Price. What about this CREST Program? There was a bit 
of ambiguity, I think, in that discussion. The CREST program is 
also--that is not a component of ATE.
    Mr. Bordogna. It is a separate program.
    Ms. Colwell. It is separate.
    Mr. Price. And CREST is the program that works primarily 
with the historically black institutions?
    Ms. Colwell. Yes.

                  STRENGTHENING CENTERS FOR EDUCATION

    Mr. Price. There you are proposing level funding, I 
believe, at $8.8 million for next year. Is that right?
    Ms. Colwell. Yes. But we, again, want to tie these to the 
Centers for Learning and Teaching. We are trying to build--if I 
may digress just a moment--in looking at educational activities 
across the Foundation, instead of just within the education and 
human resources, we find that, in fact, one-fourth of our 
budget really is spent on education, as it should be. We are 
going to be spending the next year looking at ways to integrate 
programs of fellowships in chemistry, fellowships in 
mathematics, high school programs in other directorates, and 
outreach activities that our Engineering Research Centers and 
our Science and Technology Centers undertake, to better 
coordinate these activities. Therefore, we can strengthen 
programs like the CREST Program and centers in the ATE Program, 
and to build our Centers for Learning and Teaching to be the 
equivalent for education, science and math education and 
engineering education, as the Engineering Research Centers and 
the Science and Technology Centers are for research.
    So you should expect to see a greater emphasis on education 
in math, science, and engineering by the National Science 
Foundation, better coordinated and better integration in 
subsequent hearings.

    ROLE OF COMMUNITY COLLEGES IN CENTERS FOR LEARNING AND TEACHING

    Mr. Price. All right. I have another line of questioning I 
want to pursue before my time runs out. But could you quickly 
indicate--or maybe do this for the record if you need to--the 
role, the anticipated role of the community colleges, the 2-
year schools, in these teaching and learning centers. Assuming 
that ATE has been the main vehicle for working with those 
institutions, is that somehow going to change or is it going to 
be a richer mix?
    Ms. Colwell. No. It is going to be a richer mix. There will 
be students who will, at the end of the 2 years, go directly 
into the workforce. There will be students who will go on to a 
4-year college for a bachelor's degree. There will be students 
who go into the workforce but who will return periodically for 
training. We hope a lot of them will do that.
    Thus, we have to design this educational process to meet 
the needs of the country in the future as we move into this 
knowledge economy, as we move into a shifting kind of 
manufacturing, a service-based economy. The 2-year colleges 
play a vital role here.
    Mr. Price. I would appreciate if you would just give us a 
paragraph for the record about the anticipated role of the 
community colleges in these teaching and learning centers.
    Ms. Colwell. Yes, sir. We will do that.
    [The information follows:]

  Role of the Community Colleges in Centers for Learning and Teaching 
                                 (CLT)

    NSF's Centers for Learning and Teaching will be national 
resources, developing the intellectual infrastructure needed to 
strengthen science, mathematics, and technology (SMT) education 
in the U.S. Centers will provide a continuum of professional 
development opportunities for the instructional workforce, and 
address the need to increase the capacity of higher education 
to educate future generations of SMT teachers and related 
specialists in content, instructional practices, assessment, 
research, evaluation, curriculum development, and/or informal 
education.
    To be effective, centers must involve K-12 school districts 
and Ph.D.-granting institutions. They must also collaborate in 
meaningful ways with two- and four-year colleges, state and 
local education agencies, informal science institutions, 
research laboratories, professional societies, and the like.
    Two-year colleges can make important contributions to a 
center by ensuring a diverse pool of students who wish to 
pursue study as SMT teachers or SMT educational specialists, as 
well as by providing professional development opportunities for 
the existing K-12 instructional workforce. In addition, 
involvement with center partners will provide unique 
professional development opportunities for faculty of two-year 
colleges.

                       Informal Science Education

    Mr. Price. Let me quickly ask about the Informal Science 
Education program. All right. Good. I think if you look at the 
ISE funding, the recipients of that funding, the larger museums 
tend to predominate, museums in larger metropolitan areas is 
what I mean to say, among the recipients of ISE funding. I am 
not saying this solely out of concern for my constituents 
because the city of Durham and the museum there has done quite 
well for a city of its size in attracting ISE grants.
    But other medium-sized and smaller communities nationwide 
perhaps have not done as well. Over three-fourths of ISE grants 
were provided to institutions in metropolitan areas with 
populations of 3 million or more.
    How does NSF's record of providing ISE support to museums 
in medium-sized or smaller metropolitan areas in the past year 
compare with previous years? Do you have any fix on that?
    Ms. Colwell. Actually, we are focusing more on informal 
science and math education, particularly because that which 
involves the whole family. They have to be more involved so 
that you have a better basis for education. We are also asking 
large institutions, like the museums, the American Museum of 
Natural History for example, to partner with smaller 
institutions in other States. We also have them focus on 
traveling exhibits, which can be very popular and very 
sophisticated, and move from city to town.
    Mr. Price. Do you have specific figures, though, on the ISE 
grants and how the support to these larger institutions vis-a-
vis the mid-sized and smaller institutions in those population 
areas would compare year to year?
    Ms. Colwell. I will turn to my font of knowledge, Dr. 
Sunley.
    Ms. Sunley. I don't have those figures right at hand. I can 
certainly get them for you. I think the key thing that we are 
finding is that many of the museums in the medium-sized towns 
are beginning to band together in consortia to develop exhibits 
explicitly designed to travel among a series of medium-level 
cities.
    Mr. Price. I know that is true. Durham would be a good 
example of that.
    Ms. Sunley. And I think that that is a very positive 
development in our Informal Science Education. I will have to 
go back and check those figures, though.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                Impact of Population on the ISE Program

    Mr. Price. I know that NSF has used population density 
criteria in the past, and that is an important criteria, of 
course. But I worry this approach may concentrate the funds 
among the wealthier museums, in effect, and perhaps deprive 
some smaller museums of much needed support. I wonder if there 
are other means maybe of assessing significant impact other 
than simply the projected number of visitors that come through 
the door. And I wonder what kind of steps you could take to 
reach out in such areas. These traveling exhibits surely are a 
promising initiative.
    Ms. Colwell. We feel very strongly that we need to bring 
science, engineering, and mathematics, exhibits and other 
educational programs to the underserved areas. One way to do 
this is to partner. For example, I have urged the American 
Museum of Natural History to seek out partners in the State of 
Alabama. There are some opportunities where mutual exhibits can 
be developed, and they are, I gather, proceeding. That is just 
one example.
    But I feel very strongly, too, that the role of NSF in 
informal education must be expanded. I have heard of many 
examples of people who have become wonderful scientists and 
engineers because of their Saturday mornings at a science 
exhibit or because they did an after-school program at a local 
science center. These are very, very important and they have to 
be incorporated into the overall science education effort.
    It is going to change with the Internet through digital 
libraries and access, as the sophistication of the Internet 
increases, we can bring tremendous opportunities even to the 
smallest town with not a very large number of people, a 
richness in science and engineering.
    I am reminded of one of the things we did with a high 
school in Massachusetts. The high school students were able to 
tap into an astronomy observatory and scan the Kuiper Belt. The 
students discovered two new bodies which they were able to 
name.
    Things are going to change in the future. We will see our 
potential high school, community college, and undergraduate 
students as participants in our very exciting science, math, 
and engineering exploration. We could call it research or 
science exploration. This is a very powerful mechanism for 
distributive education through the Internet.
    Mr. Price. Good. Thank you.

                          Science and Society

    Mr. Walsh. Thank you. I will begin the second round.
    Just for a minute, I would like to philosophize a little 
bit. I am not a scientist. I studied history. But I think all 
of us have a certain science that they are most interested in, 
and for me the area of study that I am most interested in is 
humanity. I think mankind--I go to art museums and watch the 
people as much as I do the art. And I worry--just let me worry 
out loud a little bit--about our society. A lot of this is 
anecdotal. I don't think anyone has their arms around the whole 
issue. And I know Dr. Kelly is a social scientist. Is that 
true?
    Mr. Kelly. Yes.
    Mr. Walsh. This conception that our society is dumbing 
down, that it is coarsening, that there is a lack of discipline 
in education today that there once was, that there is a level 
of violence in society that is more acceptable now, with the 
Internet, the level of prurient sex that is available to all 
ages, and what I think we need to worry about as a society is 
that as we invest in all of these technological sciences and 
improve productivity and improve the body of knowledge that we 
have, it is affecting fewer and fewer people proactively. I 
mean, everybody else is being dragged along by what is 
happening in industry and what is happening in science. But the 
interaction, the level of caring in our society, the level of 
respect for other individuals, I am not so sure that is 
progressing nearly as fast as the science is.
    I wonder if you would like to comment on that, number one. 
Number two, what are we doing in social sciences through NSF 
these days?
    Ms. Colwell. You touch on a favorite hobby horse of mine. I 
do believe we need to have a major initiative in the social, 
behavioral, and economic sciences, the SBE Directorate, which 
is, a very important component of the National Science 
Foundation. We are, under the leadership of our new Assistant 
Director, Dr. Norman Bradburn, who comes to us from the 
University of Chicago, is now looking at where we should be 
moving in the social, behavioral, and economic sciences. And in 
our presentation next year, I hope to be able to discuss this 
initiative with you.
    We feel very strongly at the NSF that, with the advent of 
information technology and the ability to mine large databases, 
the social, behavioral, and economic sciences are going to 
explode because of the ability to merge disparate bits of 
information and being able to understand behavior better.

                       cognitive science research

    Mr. Walsh. Take all these anecdotes and make a science out 
of it.
    Ms. Colwell. Yes. We also want to focus on the cognitive as 
well as the learning sciences and to better understand human 
behavior. Through partnerships with NIH, linking, for example, 
the Institute for Child Health and also the Brain Institute, 
which is the center for brain study between NSF and NIH we will 
be able to make progress, scientific progress in understanding 
behavior.
    I think it is a very exciting area. It is a very important 
one, and it is one that we really do need to invest in.
    Mr. Kelly. The board spent some time on this subject on its 
recent retreat, and right across the board, information 
technology on our behavior and ethical standards itself, no 
less the use of information technology and the social sciences, 
and the critical relationships to the social pathologies in our 
society, including those that go on in our public schools and 
elsewhere, and a way of getting a better analytical approach to 
those problems is something that we will be putting a great 
deal of attention to in the near future.

                       future of social sciences

    Mr. Walsh. What is the overall tenor of those discussions? 
Is it dour? Is it optimistic? How would you characterize those 
discussions?
    Mr. Kelly. I think the discussions are optimistic among the 
scientists in that we really feel for the first time we have 
the combination of databases and tools where we can get 
analytical--good data and analytical approaches to analyzing 
those data, and the results then will be acceptable for public 
policy purposes.
    Right now in the social sciences, it is too much like 
football. Everybody knows as much as the football coach on any 
given play, and everybody knows as much about stopping crime or 
everybody knows as much about mental illness as anybody else. 
But there is no established process for integrating analytical 
approaches to databases and to public policymaking. We think 
there is a tremendous upside potential there.

                  partnerships in the social sciences

    Ms. Colwell. Just as an aside, I would say that the head of 
the National Endowment for the Humanities and I have had 
discussions about possible partnerships, appropriate 
partnerships between NSF and NEH. I would also just totally say 
that, you know, scientists do have a bit of a poet in them. I 
think the best example is Roald Hoffmann, Nobel Laureate in 
Chemistry at Cornell, who writes elegant poetry.

                           support for hiaper

    Mr. Walsh. Well, let me get back to more specifics, if I 
may. Thank you for your responses. I think they are both very 
thoughtful.
    Major research equipment, the discussion about that 
earlier, included in the request are two new projects: the 
National Ecological Observatory Network and EarthScope. What is 
not included in this year's request is continued funding for 
the High-performance Instrumental Airborne Platform for 
Environmental Research, HIAPER. HIAPER was begun last year 
along with the Network for Earthquake Engineering and 
Simulation in Computing Systems Projects.
    The narrative in your justification perhaps says as much 
about this new atmospheric research aircraft as needs to be 
said. It will allow cutting-edge science to be conducted in a 
much more efficient and cost-effective manner than previously 
possible. With operational capabilities complementary to the 
existing U.S. Airborne Science Fleet, HIAPER will allow 
research into many of the outstanding issues in the atmosphere, 
biosphere, hydrosphere, cryosphere. This project went through 
the entire review process by the Foundation and Science Board 
and is, as far as I know, still on the Board's list of approved 
projects.
    As I understand it, HIAPER was on somebody's list for 
inclusion in the fiscal year 2000 budget, but was eliminated 
when going through the OMB review process. There is speculation 
in some quarters that HIAPER was sacrificed to accommodate more 
spending initiatives considered of higher importance by the 
White House, i.e., OMB.
    The Congress, nevertheless, acknowledged the importance of 
the project and funded it at $10 million while also funding the 
other new projects. Subsequently, HIAPER apparently is now 
considered a ``congressional earmark'' and, thus, not worthy of 
support from the Administration.
    Not only did HIAPER receive a disproportionate reduction of 
$2.5 million in the fiscal year across-the-board cut exercise, 
it was apparently not even included in the original fiscal year 
2000 budget request sent by the Foundation for OMB's approval.
    Does NSF still support HIAPER?
    Ms. Colwell. Yes, sir. During fiscal year 2000, the science 
community refined the science and the performance requirements, 
and UCAR and NCAR prepared an RFP to acquire a modified 
airframe. This RFP is going to go out in April. The proposals 
will be evaluated during the last two quarters of fiscal year 
2000. No contract for acquisition or modifications to the 
HIAPER airframe will be awarded until the funding is requested.
    We will be including a request for further development and 
construction of HIAPER in the fiscal year 2001 budget--or at 
least we hope--for 2002, sorry.
    Mr. Walsh. Do you look at this as an earmark, a 
congressional earmark? Because according to the Constitution, 
we have the power of the purse, and whatever we spend money on 
could be then considered earmarked.
    Ms. Colwell. It was approved by the National Science Board 
as part of our plan.
    Mr. Kelly. The National Science Board----
    Mr. Walsh. So you don't consider it a congressional 
earmark?
    Ms. Colwell. No.
    Mr. Kelly. The National Science Board approved it, I think 
2 years ago. It has been on the list of approved projects ever 
since, and I think the specific proposal is coming before the 
board shortly----
    Ms. Colwell. Well, for the fiscal year 2002 budget.
    Mr. Walsh. Is this being sacrificed for the newer----
    Ms. Colwell. No. What we are doing now is actually spending 
time and effort on design of the airframe and design of the 
airplane itself. And then the funding for stages of 
construction will be requested.

                          NEON AND EARTHSCOPE

    Mr. Walsh. Okay. Turning now to the new projects proposed, 
NEON and EarthScope, I am interested to know why in your 
opinion these are priority projects which deserve support at 
this time.
    Ms. Colwell. These are projects that will allow us to gain 
a better understanding of the environment in which we live. 
EarthScope will give us a sensitivity of measurement that we 
don't have now, and give us the capability of being able to 
understand the effects of volcanoes at great distances. NEON 
will give us the capability of applying cutting-edge science 
and engineering-based ecological approaches to understanding 
the ecosystem in which we live.
    In other words, we will be in a position to be able to 
scientifically define what a sustainable environment is. We 
will be able to go from the emotional to the pragmatic and the 
scientifically based understanding and predictability, which is 
very, very important. Being able to predict an earthquake much 
sooner is certainly valuable in terms of property, human lives, 
and society in general.

                     INDICATIONS OF CLIMATE CHANGE

    Mr. Walsh. On this NEON project, there has been a number of 
studies recently that have suggested the oceans are warming. 
Again, anecdotally, it would seem the weather has warmed at 
least in the last several years. Our winters are milder. I 
don't know if that is a cyclical sort of ``normal'' occurrence. 
But does NEON or EarthScope give us hard data to determine 
whether or not--or what is causing these things?
    Ms. Colwell. Yes, it does. In the Antarctic, for example, 
there are some long-term ecological sites, one of which may be 
part of the NEON effort. There we are beginning to get evidence 
of receding glaciers. We are seeing effects in the biota, in 
the Antarctic waters, and measurements are being made of CO2 
concentrations at the Pole. And at these other sites, we will 
get a better measure of the changes in the flora and fauna, 
sensitive changes that then can be put into a database, and, 
again, it is the information technology that really empowers 
these capabilities. It has transmogrified, if I may use a very 
strong term, ecology and our understanding.
    Mr. Walsh. Just your ability to manipulate all that data?
    Ms. Colwell. Yes, to be able to handle the data in large 
databases, to be able to interpolate them, to merge them, and 
to be able to mine them.
    Mr. Kelly. Let me say, when we were conducting the hearings 
on the environmental task force's report, ``panic'' would 
probably be an overstatement, but among the professionals in 
the field, the level of fear was really about what you are 
talking about in terms of global warming and its impact, and 
our inability to identify those impacts, we are moving to a 
high level of concern and perhaps fragility, with respect to 
the environment. The Ross floe, an ice sheet just breaking off 
which is the size of Connecticut, just gives you some sense of 
how dramatic these kinds of activities take place.
    Also, these ecological movements have strong impact on 
disasters, and the whole time together of what can take place 
in terms of volcanoes, earthquakes, floods, and their impact 
environmentally. It is a cause-and-effect, mutually reinforcing 
effect.
    So the scientists in this field really think we are way 
behind the curve on this for the sake of the planet we have to 
catch up quickly.

                       DISTRIBUTION OF NEW SITES

    Mr. Walsh. It is pretty remarkable that this year they 
discovered Sir Edmund Hilary's body on Mount Everest. I think 
he disappeared over 40 or 50 years ago, and the reason is 
because the snow and ice had melted. That is a fairly 
significant long-term effect.
    With regard to NEON, your proposal includes construction 
and operation of ten observatories nationwide that will serve 
as national research platforms for integrated cutting-edge 
research in field biology. Each site would have the 
experimental and state-of-the-art infrastructure necessary to 
conduct large, complex field experiments as well as 
appropriate, well-documented natural history archive facilities 
and facilities for biological, physical, and data analysis.
    These ten observatories--you just suggested one of them 
might be at the South Pole, but will they be distributed 
throughout this country?
    Ms. Colwell. Yes, throughout the United States, including 
Alaska and the Arctic. These sites would be linked through 
electronic communication and data sharing. That is an important 
part of these sites. We will now be in a position to take data 
being collected, let's say, in upstate New York and New Mexico, 
Alabama, North Carolina. This data then can be part of a 
national database and be able to be drawn on by scientists 
wherever they may be.
    They are not just the NEON scientists, but scientists 
working at institutions throughout the country. It becomes a 
national resource.

                       DEVELOPMENT TIME FOR NEON

    Mr. Walsh. How long has this program been in development, 
the NEON program specifically?
    Ms. Colwell. Again, as I said earlier, it builds on the 
LTER----
    Mr. Walsh. The concept of this ten-location, data-sharing--
--
    Ms. Colwell. In the last couple of years.
    Mr. Walsh. Just within the last 2 years?
    Ms. Colwell. Yes, the last 2 years.
    Mr. Walsh. All right. Thank you.
    Mr. Mollohan. I am sorry. Ms. Kaptur has arrived. Ms. 
Kaptur.
    Ms. Kaptur. Good afternoon. Thank you very much. I 
apologize for being at two other meetings at the same time.
    Mr. Chairman, I wanted to ask you, is this the last round 
of questioning?
    Mr. Walsh. No--I don't know, quite frankly. It depends on 
how many people are still here----
    Ms. Kaptur. Okay. I was going to defer to one of the other 
members, yield to one of the other members until I had a chance 
to review some of what's already been said so I don't repeat, 
if that is all right.
    Mr. Walsh. Okay. Do you want to go ahead, Mr. Mollohan?
    Ms. Kaptur. Thank you very much.

                     REVIEW OF SYSTEMIC INITIATIVES

    Mr. Mollohan. Dr. Colwell, regarding the systemic education 
reform, how do you assess its performance? Let me just refer to 
your statement highlighting the systemic education reform 
result on page 41. You say that in fiscal year 1999, 48 of the 
68 active systemic initiatives under the Urban Systemic 
Program, the Statewide Systemic Initiatives and the Rural 
Systemic Initiatives, have implemented standards-based 
mathematics and science curricula in over 81 percent of the 
participating schools. So, 48 of the 68 active systemic 
initiatives have implemented standards-based mathematics 
criteria in over 81 percent of the participating schools.
    Can you just elaborate on that a little bit and give us 
some sense of how that describes success or to what extent we 
need to be more successful with the program?
    Ms. Colwell. Let me say that we are now in the process with 
an external contractor----
    Mr. Mollohan. I am sorry. I didn't hear you.
    Ms. Colwell. External contractor to review progress on the 
systemic initiatives.
    Mr. Mollohan. Who is that external contractor?
    Ms. Colwell. Dr. Sunley?
    Ms. Sunley. I will have to double-check.
    Ms. Colwell. We will have to give you that information.
    Ms. Sunley. It is actually divided up as a different 
contractor groups.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Colwell. The point is that we are getting an 
independent, objective evaluation to seek out correlations and 
parameters associated with success. So that as we move forward, 
we will design initiatives that will include those parameters 
associated with success.
    Now, actually how they are implemented, I am going to ask 
Dr. Sunley to comment on the measurement of success in these 
programs.
    Ms. Sunley. Of course, what you would really like to have 
coming from the systemic initiatives is solid data that they 
are having an impact on the student performance. But to get 
solid data on student performance takes time because we are not 
in some sense NSF going in and working directly with the 
students ourselves. So the way we have set up our performance 
planning for the systemic initiatives is to focus on some of 
the interim things that tell us the building blocks are being 
put in place to let us know that student performance should 
follow.
    So when you look at that particular statement about our 
performance in systemic initiatives, what you are seeing is the 
first step is putting standards into place that you apply to 
all students, and that you then link your curriculum with the 
kinds of expectations that you have for student performance, 
and that you work with your teachers to make sure they get the 
kind of professional development that they need in order to 
implement the curricula that carry out your standards. Then, 
ultimately, beginning with the beginning of the systemic 
initiative and continuing well past its funding, you are 
following what is actually happening with student performance.
    What we were looking at in this were the systemic 
initiatives that had been in place for at least 3 years so that 
you could look at these indicators, interim indicators of 
progress. And what we are finding is that, indeed, in on the 
order of 80 percent of the schools associated with the systemic 
initiatives, we are seeing these interim indicators coming into 
play. And in many of them, we are getting preliminary 
indications of improved student performance as well.
    Mr. Mollohan. This sounds like a kind of new criteria 
system, a new evaluation system. Is that accurate?
    Ms. Sunley. Well, if you look----
    Mr. Mollohan. The program has been ongoing for a number of 
years.
    Ms. Sunley. The statewide systemic program has been ongoing 
now for almost 10 years.
    Mr. Mollohan. Right.

                     Statewide Systemic Initiatives

    Ms. Sunley. At the statewide level, you have the least 
direct connection with the students, but you have the most 
direct connection with putting standards in place. And that is 
what the statewide systemic initiatives were largely designed 
to do, was look at standards, curricula that implemented them, 
and how to go about teacher professional development in the 
State to support the standards the State decided on.
    So in some sense, it is not new criteria. It is the set of 
interim indicators that were in place at the time the systemic 
initiatives were pulled together.
    The urban and rural systemic initiatives are newer. The 
first cohort of urban systemic initiative activities just 
finished a year ago, and so there, again, by the time they were 
put in place, these interim indicators were there, and they 
were the kinds of things that we have been following through 
our monitoring systems all along.
    Our GPRA activities have helped give us definition for 
those, not as new criteria but as better defined criteria that 
allow us to do more sustained measurement.
    [The information follows:]

              Evaluation of Statewide Systemic Initiative

    The external evaluation report of NSF's Statewide Systemic 
initiative is being provided directly to Representative 
Mollohan.

    Mr. Mollohan. Well, with regard to, say, the State systemic 
program, which has been in existence longer than the other two, 
what is your evaluation of the success of the program?
    Ms. Sunley. The statewide systemic initiative does actually 
have a completed external evaluation. In that evaluation----
    Mr. Mollohan. It is a document?
    Ms. Sunley. It is a document. I can provide to you a copy 
of it, if you would like.
    Mr. Mollohan. Would you, please? I would appreciate it.
    Ms. Sunley. And in that completed evaluation, they found 
that, indeed, States had put standards into place, had looked 
at curricular frameworks that would implement those standards, 
and had paid significant attention to teacher professional 
development and created models that were being disseminated 
throughout the States.

                Success of Statewide Systemic Initiative

    Mr. Mollohan. Has it been successful in terms of your 
expectations? Give me some sense of whether you think this is a 
good program or not.
    Ms. Sunley. I think in terms of my expectations, yes, I 
think the statewide systemic initiative----
    Mr. Mollohan. Were your expectations low or high? 
[Laughter.]
    Ms. Sunley. Well, I wasn't directly connected with the 
program when it was put in place. I think, yes, my expectations 
initially were fairly high.
    Mr. Kelly. Congressman, I can give you a board response at 
some time.
    Mr. Mollohan. Maybe she can finish her----
    Ms. Sunley. And I think that what we have demonstrated 
through the third-party evaluation is that those initial high 
expectations were met, both in the first phase but more 
explicitly in the second phase, where we have now only--I think 
it is eight States and Puerto Rico, the current active 
statewide systemic initiatives. And what we are seeing in those 
States that have vigorously pursued this is that they are 
reaching the vast majority of schools in the State and having 
an impact on the kinds of results they are getting in their 
State----
    Mr. Mollohan. So what you are saying, in the States that 
are being successful, you see success.
    Ms. Sunley. Yes. Now, it is true that the Phase 2 schools 
were those that were deemed most--Phase 2 States were those 
that were deemed the most successful.
    Mr. Mollohan. Thank you. I will look forward to the 
document you are going to send me.
    Doctor?
    Mr. Kelly. From my perspective personally, and I think from 
the board, the expectations were not very high. You are talking 
about especially in terms of your urban public school systems, 
and to see the successes that we have seen now at the State 
level and to see preliminary evidence being successful in very 
large urban centers at the city level--and it is more difficult 
and complicated at the rural level--but that the preliminary 
indication is positive, really in public education this is the 
first light at the end of the tunnel. Compared to everything 
else we have tried in public education, this looks like a 
relatively successful program where these evaluations will be 
important.
    It is also interesting to note that, as science and math 
scores go up in the statewide and urban systemics--and you have 
places like Detroit, Chicago, Memphis, San Antonio, other 
places where the scores have gone up above the State average--
not only is that taking place in math and science scores, but 
an even larger increase in reading scores. So if the children 
start to learn with a demanding curriculum, it has all kinds of 
benefits, not the least of which is dramatic improvement in 
reading behavior.
    So we have been watching this carefully and are cautiously 
optimistic. This is a very, very tough environment where 
America has not been very successful, but it is contrary to 
almost everything else going on out there in public ed. This is 
working and needs a lot more effort, needs the kinds of 
evaluations going on and a better understanding of how we 
learn, as the Director was talking about before, but a 
fascinating and important area.

                             epscor funding

    Mr. Mollohan. I look forward to seeing the reports.
    Let me go to the EPSCoR programs. Congressman Cramer asked 
you a few questions about that. I would just like for you to 
elaborate a bit on them because I want to understand how you 
are increasing the EPSCoR program when, as I am reading your 
request, we are looking at an actual $3 million cut.
    Ms. Colwell. The decrease of $2.98 million to $48.41 
million reflects--what we are trying to do now, that is, to 
emphasize co-funding of competitive research proposals coming 
to NSF in NSF-wide program and shared funding with the NSF 
directorates. As a result, the total funding we are expecting, 
with this co-funding from R&RA, will be about $73 million.
    Mr. Mollohan. Okay. What do you mean by co-funding?
    Ms. Colwell. This means that where a proposal goes into, 
let's say, chemistry, that there will be EPSCoR funds in the 
chemistry division to match it. So we are leveraging money in 
the research directorates.
    Mr. Mollohan. Give me an example of how that might work and 
how that is different from fiscal year 2000.
    Mr. Bordogna. If a proposal comes into the regular 
competition from an EPSCoR State, then we use EPSCoR money to 
leverage money in that particular chemistry division where it 
may be in the regular program. It does two things. It leverages 
money so there is more. In fact, $73 million is more than the 
roughly $71.5 million, that was last year's total, so there is 
about $1.5 million more that is coming into the program. It 
leverages the money. It also gets the EPSCoR people into the 
regular program because one of the strategies is to get them 
integrated with the regular competition as we try to look at 
everything. So that is the idea.

                           epscor competition

    Mr. Mollohan. Just conceptually there, you are taking what 
is admittedly a remedial kind of concept where you isolate a 
block of funding for research-challenged areas, and you are 
creating a competition among them, are you not, in the EPSCoR 
program as we know it today?
    Mr. Bordogna. Right. There are program officers in each 
State, and they would hold a competition there before they come 
to us.
    Mr. Mollohan. Right. So grants or applications coming from 
these areas are far more likely to get funding because they are 
drawing from a----
    Mr. Bordogna. A special pool.
    Mr. Mollohan. A special pool.
    Mr. Bordogna. But there is another issue besides being a 
special pool in which you compete. The idea is to have the 
investment and the competition to lift them to be capable----
    Mr. Mollohan. Oh, I understand that, and so arguably, once 
you go through this drill a couple times and you understand it, 
you develop some sort of a little critical mass of capability.
    Mr. Bordogna. It is a network, too.
    Mr. Mollohan. And you are also networked. Then you are 
expected to compete in the regular process. Now, what I am 
hearing you say here is that you are going to take some of 
those EPSCoR funds now and use them for competitors or 
applications.
    Ms. Colwell. Let me give you an example----
    Mr. Mollohan. Well, let me just--just so I understand, and 
then I will let you give me examples. Then I might understand 
it.
    In other words, if you get an application from an EPSCoR 
State, for example, that is in the regular pool, then you are 
suggesting you may be more sympathetic to that person----
    Ms. Colwell. No. It comes to whether should we fund it if 
funds are available. In other words, if it falls in the 
fundable category, then you can take funds from the EPSCoR to 
match----
    Mr. Mollohan. You see, I am not immediately attracted to 
that because what that does is allow you to fund in your non-
EPSCoR pool, projects that you don't have money enough to get 
down to in the regular competitive process, which takes away 
from the ability to nurture the EPSCoR States with EPSCoR-
designated funding. What am I missing here?
    Ms. Colwell. Dr. Eisenstein, would you like to comment?

                             epscor mission

    Mr. Mollohan. It gives you a little more robust funding on 
the regular side.
    Ms. Colwell. There are benefits to the institution.
    Mr. Eisenstein. We have a two-edged sword: one is to 
promote the best research in the best institutions that we 
have, and the other part of our mission is we have an 
educational part of our mission that is directly linked toward 
raising the educational--raising the research capability at 
institutions across the board. And so we----
    Mr. Mollohan. But you also have a fourth one. You have a 
mission that is defined in the EPSCoR program.
    Mr. Eisenstein. That is right. And we are trying to make a 
bridge between all those things to raise the overall capability 
as a whole.
    Mr. Mollohan. Well, I understand that and can agree to 
that. But what my concern is--and you need to state your name 
for the record. I am sorry.
    Mr. Eisenstein. I am Robert Eisenstein. I am the Assistant 
Director for Mathematical and Physical Sciences.

                          RESOURCES FOR EPSCOR

    Mr. Mollohan. Thank you, Doctor.
    What I am concerned with is diminishing the resources 
available for the EPSCoR mission.
    Mr. Eisenstein. I am at a loss to understand why you----
    Mr. Mollohan. Well, let me try to explain that. If I have 
an EPSCoR program here as a defined mission, I also have a 
defined population, by definition--right?
    Mr. Eisenstein. Right.
    Mr. Mollohan. Okay. And I have got participants competing 
in that system with a segregated amount of money to support 
that. Now, if those applications are going over here to compete 
in the regular process, then there is a set of money for that. 
If I take money away from the EPSCoR program in order to fund 
those who are participating from those EPSCoR areas in the 
regular fund, have I not diminished the EPSCoR pool?
    Mr. Eisenstein. I don't think so.
    Mr. Mollohan. Okay. Tell me why I am wrong.
    Mr. Eisenstein. I guess what I would say is that the way I 
look at it is we are trying to use the money from all of the 
research directorates, whether it is EPSCoR-designated or not, 
to fund as much research as we can in EPSCoR States and 
elsewhere. And I would look at it as a net transfer of money 
into the EPSCoR program rather than the other way around.
    Mr. Mollohan. Okay. Well, I just need to understand that 
more, and I will look forward to following up with you on it, 
because I am sure you are right. [Laughter.]
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  TRAINING THE WORKFORCE OF THE FUTURE

    Mr. Mollohan. But I want to understand it more.
    Workplace requirements. Talk to me a bit about that, if you 
will, Doctor. On page 25 of your budget summary, you say, 
``Addressing immediate workplace requirements.'' What do you 
mean by immediate? And what do you mean by workplace 
requirements?
    Ms. Colwell. The ATE?
    Mr. Mollohan. Yes.
    Ms. Colwell. Congressman Cramer pointed out that he has a 
company with no trained workforce, and so that is pretty 
immediate, to find a way to educate folks who can then take 
those jobs that are available rather than importing people to 
do those jobs.
    Mr. Mollohan. All right. So in the regular course of 
business in any economic sector, is that----
    Ms. Colwell. Working through the 2-year college----
    Mr. Mollohan. Let's talk about workforce first. What 
workforces are we talking about? In any economic sector?
    Ms. Colwell. Yes, across the board.
    Mr. Mollohan. Okay. And then ``immediate'' means that you 
have----
    Ms. Colwell. Short term.
    Mr. Mollohan [continuing]. An immediate shortage of 
workers. All right. Then how does this program address that 
problem, and who is eligible to participate?
    Ms. Colwell. The program funds the 2-year colleges and any 
special programs in 4-year colleges we want to put forward.
    Mr. Mollohan. I am sorry?
    Ms. Colwell. And any special programs that are developed 
specifically to address workforce needs so that----
    Mr. Mollohan. Who would develop those programs?
    Ms. Colwell. Some could be developed by universities.
    Mr. Mollohan. Okay, locally initiated, coming to you with a 
plan.
    Ms. Colwell. With a plan, right.
    Mr. Mollohan. Okay.
    Ms. Colwell. And the program of study would lead to the 
graduates being able to take jobs in the community where the 
jobs are available.
    What is good about it is that this would be a continuing 
shaping of the education to meet the needs of the community. So 
you would not just establish a simple single-degree program, 
but you would have the opportunity to modify it and to provide 
special needs for the workforce as it develops in the future.
    Mr. Mollohan. Flexibility.
    Ms. Colwell. Flexibility.
    Mr. Mollohan. And this is from the real training level 
right up through graduate work, I assume.
    Ms. Colwell. Yes, sir.
    Mr. Mollohan. The 2-year training, for example.
    Ms. Colwell. Four-year, postgraduate, returning.
    Mr. Mollohan. How long has this program been in existence?
    Ms. Colwell. Two years?
    Mr. Bordogna. This particular one, but the ATE program is 
10 years?
    Ms. Sunley. It is on that order.
    Mr. Bordogna. The ATE program is a decade old.
    One of the real issues here is we are finding more and more 
that the workforce requirements of the high-tech industry are 
in the area between high school and a baccalaureate. With a 
bachelor's degree as an engineer or scientist, you can go out 
and be very conceptual. Where the great need will be for 
fabrication workers, especially in nanotech. We are going to 
have a whole new technology for making things that are smaller. 
We will need people that can do that, who can work on the 
assembly lines and so on. And the information technology 
industry too, like pieces of software and so on.
    So it appears now that the great need in the workforce for 
the next 20 years is there. The strategic part is that while 
the community college infrastructure in this country is very 
good, we want to also reinvent what they do. They would do it, 
and we are trying to help them because a different kind of 
worker is needed. But not necessarily engineers and scientists 
and Ph.D.s.

                              IT WORKFORCE

    Mr. Mollohan. Well, you must be besieged with applications 
for people who are interested in software engineers.
    Ms. Colwell. Absolutely. In fact, it is incredible. The ITR 
initiative has engendered 2,000 pre-proposals and proposals, 
and a total funding of about $3 billion. We only have $90 
million, so there is a need there. There is a real need.
    Mr. Mollohan. Well, do you think you are the appropriate 
agencies to address that need?
    Ms. Colwell. Yes.
    Mr. Mollohan. You do?
    Ms. Colwell. Yes, we do.
    Mr. Mollohan. Not the Department of Education or----
    Mr. Bordogna. We integrate research and education. It is a 
very important strategy because you learn by discovery, and we 
also--you know, every dollar is focused on that, not just 
discovering something but learning at the same time. So we 
produce this transition to the marketplace of these people, 
that is our mission.
    Mr. Mollohan. Do you see your participation here limited to 
prototyping or to actually solving this problem nationwide? 
Because, as you point out, if you are going to solve this 
problem, you would need a whole lot more money.
    Ms. Colwell. Exactly.
    Mr. Bordogna. We must be involved in the long-term 
evolution of this and the short-term needs for this----
    Mr. Mollohan. Well, that is what I meant by prototype, sort 
of developing----
    Ms. Colwell. Well, the prototype----
    Mr. Bordogna. Models.
    Ms. Colwell [continuing]. In the short term.
    Mr. Mollohan. And so do you see your role really as 
approving applications that advance your model in a particular 
circumstance?
    Mr. Bordogna. I think this is investment in the science of 
learning, how people think and learn. We are trying to invest 
in how--what are the right models. We wouldn't determine that. 
The community would. That is critical to almost everything we 
do.

                   MEETING IT WORKFORCE REQUIREMENTS

    Mr. Mollohan. Are you coming up with any conclusions with 
regard to how we solve this shortage of information technology 
software engineers?
    Ms. Colwell. Well, we have developed programs that address 
it. We have already made preliminary grants in the computer 
science, engineering, and mathematic scholarships, the H-1B. We 
are looking at, as I said earlier, across the whole Foundation, 
to integrate our education activities because they are very, 
very important.
    We need to focus because, again, our budget relative to the 
other agencies, especially the Department of Education, is 
very, very small. So we have to make sure it is very wisely 
invested. But it is an area that we can serve much more the 
Nation's needs.
    Mr. Bordogna. We have a very generic investment in this 
whole issue, but the H-1B, some part of those fees are 
invested--given to NSF to invest the more short-term things so 
we don't have to keep getting people from abroad to supply our 
workforce. So this is a special kind of money which we are 
trying to couple with our more long-term investment.
    Mr. Mollohan. And you are requesting $39 billion?
    Mr. Bordogna. That is for the----
    Mr. Frelinghuysen. That is for the ATE program.
    And connected with that I was trying to connect something 
else. I was trying to make the point that when we are asked to 
do something special, like use the fees well, in which we are 
investing in scholarships in information technology, 
manufacturing, because the needs are up now, we don't want to 
do that in isolation of the investment in this more generic 
issue of the work place and particularly here at the community 
college level.
    So, that is very important or else we are not being the 
teacher.
    Mr. Mollohan. Thank you. I think I have used up most of my 
time.
    Mr. Frelinghuysen [presiding]. Thank you, Mr. Mollohan. Mr. 
Knollenberg.
    Mr. Knollenberg. Mr. Chairman, thank you very much. I 
appreciate your kindness in recognizing me.
    Mr. Frelinghuysen. That is an offer I couldn't refuse.
    Mr. Knollenberg. I apologize to the panel, Dr. Colwell, Dr. 
Kelly----
    Ms. Colwell. Good to see you.
    Mr. Knollenberg. Good to see you again--for not being here. 
I can't be in two places at the same time, and Congress hasn't 
helped me do that very well, so, I missed most of this because 
of another hearing.
    Let me go into the question real quickly with respect to my 
own State, my own area, the Great Lakes. There is an initiative 
that was part of the President's State of the Union speech and 
I have been addressing this topic to a variety of panels. We 
were unaware of it coming, didn't know a thing about it, are 
still trying to get details and my question for you is whether 
or not you can help us in terms of being an architect and any 
of the details of this. And as you look or if there are no 
details, maybe we will have to look, at least within your 
group, we will have to look elsewhere. But last year I recall, 
I don't recall honestly, I was advised that Mr. Frelinghuysen 
did ask you a question or in the course of a question a 
conversation came up about some collaborative efforts that you 
were making with the EPA and that I think it dealt with the 
environmental processes in the coastal regions of the Great 
Lakes.
    Ms. Colwell. Yes.

                   PARTNERSHIPS BETWEEN NSF and EPA 

    Mr. Knollenberg. It sounds interesting to me. And I think 
that coming from Michigan as I do, but I have to wonder if this 
new $50 million might have had some connection to any 
collaboration you might have had with EPA because outside of 
EPA nobody seems to know much about this program. They really 
don't. And Carol Browner, in her testimony to us a couple of 
weeks ago, declared if you had come to me, I could have told 
you. But then she didn't tell me very much either.
    So, we are yet to find out what is going on here. I wonder 
do you have any information at all? In other words, did you 
have a hand in this Great Lakes Initiative?
    Ms. Colwell. Let me just respond by saying that we do have 
a partnership with EPA to study coastal processes in the Great 
Lakes Region and that is underway. We also have another 
partnership with the National Oceanic and Atmospheric 
Administration and EPA on toxic algae, which is a serious 
problem on coastlines as well as in the lake area.
    And these are partnerships that we carry out so----
    Mr. Knollenberg. These are ongoing?
    Ms. Colwell. Ongoing, yes.
    Mr. Knollenberg. So, there is nothing--there was no 
birthdate of any idea that ballooned into an initiative?
    Ms. Colwell. No. And they are still gestating, but I don't 
think it is born yet.
    Mr. Knollenberg. So, you have had an ongoing thing?
    Ms. Colwell. Yes, sir.
    Mr. Knollenberg. So, there is no real birthmark we can put 
on you as to your having anything to do with architecting that 
initiative? That is beyond your involvement; is that right?
    Ms. Colwell. Yes. Beyond only in the sense that we are 
doing a collaboration and if that is part of it, fine, but we 
are moving along very successfully.
    Mr. Knollenberg. We are learning that we are not getting 
much information but we are learning that it must be in the 
thoughtful stage right now. It clearly hasn't been ground out 
to where it is in black and white. So, I hope that maybe you 
could share some information.
    Let me go on to another----
    Ms. Colwell. May I----
    Mr. Knollenberg. Yes.
    Ms. Colwell. Dr. Leinen.
    Mr. Frelinghuysen. If you could identify yourself for the 
record, please?
    Ms. Leinen. Sorry. I am Margaret Leinen, Assistant Director 
for Geosciences. We have a fairly broad partnership with the 
Environmental Protection Agency that has some things in all of 
these areas. The overarching theme is one of quality, which 
sub-themes of coastal zones, Great Lakes, and so forth. And, 
so, it may have been a component of a sub-theme of that overall 
partnership to do research and policy.
    Mr. Knollenberg. I think that is the reference in the 
report language last year that it was coastal areas. But this 
is something that is ongoing all the time. It is not, it wasn't 
a new item on your page.
    Mr. Bordogna. The EPA partnership is about four years old.
    Mr. Knollenberg. Yes. Well, that is--I think we have 
probably gotten the answer on that.
    Ms. Colwell. Okay.
    Mr. Knollenberg. Let me go to another question about NSF 
research in Michigan. I mean you know, Dr. Colwell, that 
Michigan is, among other things, the NCAA champion. [Laughter.]

                   level of nsf funding for michigan

     But beyond that and on a serious note, the University of 
Michigan, the Michigan State University, are both much involved 
in--I would say they are hotbeds of research in a variety of 
ways. We all hear the exciting things that are taking place, I 
know, on the David Price's district with the research triangle. 
What I am after here is I am of the belief that Michigan is on 
the brink of maybe joining some of those communities. We aren't 
Route 128 or Silicon, but there is a whole lot of things that 
we have got and part of it runs right through my district in 
the northern suburbs of Detroit.
    But what is the level of research that is going on in 
Michigan?
    Ms. Colwell. It is quite extraordinary. We have 676 awards 
totalling about $130 million to 33 institutions in Michigan.
    Mr. Knollenberg. How does it compare to the other States?
    Ms. Colwell. I would say this is near the top. It is a 
powerhouse, there is no question about it. And I have many 
colleagues, both at the University of Michigan and Michigan 
State University with whom I have interacted as a scientist and 
continue to do so as a scientist. The Engineering Research 
Center, the Microbial Ecology Center, and by the way, Michigan 
State stole one of our best people, Janie Fouke is now the Dean 
of Engineering.
    Mr. Knollenberg. He doesn't play basketball.
    Ms. Colwell. No, she doesn't. [Laughter.]
     But she is a great Dean of Engineering.
    Mr. Knollenberg. I just really am interested in what plans 
there might be for enlargement. Obviously, there is in that 
State and within those two universities, a great deal, I think, 
of extraordinary effort being done to elevate her presence and 
to attract, obviously, some of the things that you provide 
funds for. So, I would just--it is a parochial appeal----
    Ms. Colwell. I will be delivering a commencement address to 
Michigan State University and I suspect that we will have some 
strong discussions about this topic.

                      support for carbon research

    Mr. Knollenberg. My final question has to do with carbon 
research. I know that NSF does a fair amount of research on the 
issue of climate change. And I know that NASA is also doing 
some things. And what I am interested in talking to you about 
is this carbon cycle initiative. And I want to know what your 
agency is doing on this front?
    Ms. Colwell. We are actually actively participating and 
probably one of the perpetrators, if you will, of the program. 
I might ask Dr. Leinen, if you might want to comment?
    Ms. Leinen. Yes. The Foundation was one of six agencies 
which jointly sponsored an interagency working group to, in 
response to a National Research Council report called, ``Global 
Environmental Change: Pathways for the Next Decade.'' That 
report emphasized the importance of carbon-cycle research for 
the overall global change agenda. This interagency-sponsored 
working group went to the scientific community and asked them 
to prepare a U.S. science plan. That has now been published 
through the National Research Council and we are in the process 
of evaluating three different responses that NSF might take. 
Those responses have all been proposed to us by the scientific 
community.
    They have elements which are similar, yet each one has a 
slightly different perspective on how to address the problem. 
We are in the process of discussing those with the scientific 
community and with the other agencies.
    We have included money within the Geosciences under the 
general category, earth cycles in the 01 budget, which would be 
to fund that carbon-cycle research.

             agency coordination for carbon-cycle research

    Mr. Knollenberg. Would you have any idea if the activities 
that you are engaged in is duplicated elsewhere?
    Ms. Leinen. We are trying very hard for them not to be 
duplicated elsewhere.
    Mr. Knollenberg. How do you--that must be a task--but how 
do you make an assessment?
    Ms. Leinen. By working through the Subcommittee for Global 
Change Research which is part of the Committee on Environment 
and Natural Resources of OSTP. What we have been doing is to 
focus between the agencies for the mission agencies to identify 
the areas in which they have unique contributions. For example, 
NASA and satellites.
    Mr. Knollenberg. I was going to say, NASA, you and NASA try 
to avoid each other.
    Ms. Leinen. Yes. And in NOAA, their particular interest in 
this has largely been in the ocean sciences, although they have 
some in the service sciences. So, we have been working with 
them to make sure that our programs are complementary instead 
of overlapping.
    Mr. Knollenberg. The same is true at EPA, would you say?
    Ms. Leinen. Yes.
    Mr. Knollenberg. Thank you very much, Mr. Chairman.
    I have no further questions.
    Mr. Frelinghuysen. Ms. Kaptur, thank you for your patience.
    Ms. Kaptur. Thank you very much. I must say I am very 
impressed with this panel, you really have a fun job.
    Ms. Colwell. We do, indeed.

    Support for Engineering, Manufacturing and Industrial Innovation

    Ms. Kaptur. And the Science Foundation and all of those 
that have come with you today, you make such an contribution to 
our country and to the world and every single area that you are 
involved in is extremely interesting. And, so, I wanted to 
welcome, Drs. Colwell, and Kelly and all of those who have 
accompanied you today.
    I am going to try to ask a series of questions on a number 
of points. I hope I can do this quickly. First of all, I wanted 
to thank the Science Foundation for continuing an emphasis on 
design manufacture and industrial innovation because as a young 
member of this Committee many years ago, when we looked at the 
NSF budget the industrial side of the equation was not really 
incorporated in the NSF's mission.
    And coming from a part of the country where manufacturing 
is extremely important even today, I am very pleased to see 
that continuing in your budget and the NSF having responded 
over the years. I had an interesting conversation with one of 
our members who believes he represents the semi-conductor 
industry which he views as the ``new, new technology,'' you 
know, and I confronted him the other day because he appeared on 
a CSPAN show and dumped on manufacturing and as the old, you 
know, and they were moving into the new. And I walked up to him 
on the elevator and I said, by the way--I pinned him in the 
corner of the elevator, and I said--what is the chief, who, 
which industry is the primary customer of the semi-conductor 
industry? And he was stone cold. He didn't know. I said it is 
the automotive industry. Oh. I said, you don't exist in a 
vacuum. I mean these are put to work somewhere.
    And, in fact, there is actually an interaction between the 
work place and the technology and it is interesting how some 
Members of Congress view this whole set of componentry that 
forms the basis of the economy of this country. So, I want to 
thank you for continuing your efforts in that area.
    I can only imagine, and I will ask for the record, the 
types of projects that you are supporting in the area of 
engineering, manufacture and industrial innovation. I haven't 
looked at that in a while but I would appreciate more 
specificity there.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  Research in Energy Self-Sufficiency

    Ms. Kaptur. I also wanted to ask you, of course, on 
everyone's mind here are the prices of fuel in our country and 
I happen to represent a State where and a region, really, where 
have more BTUs underground in coal than the Middle East has 
BTUs in liquid crude. And I wanted to ask you if any of your 
research projects involve the concerted effort to help America 
become energy self-sufficient again?
    When I began my career in Congress, about a third of our 
energy was imported, now it is two-thirds. And I know that 
though we have what is called ``Dirty coal'' in our region of 
the country, through closed technologies one can separate off 
methane and hydrogen and the sulphurs and what continues to 
elude me is if we can put somebody on the moon, why can't we 
develop in this area? And, secondly, representing farmers who 
are in the tank and they have been in the tank, why can't we 
use biofuels?
    What is preventing us from moving forward faster on a 
scientific front if that is our problem in this area of new 
fuels production and we have done pretty well on photovoltaics; 
we have got some breakthrough technologies about to be 
introduced into the market there. But what about our ability to 
mine what we have, clean it up and to grow our way out of this 
fuel crisis?
    Ms. Colwell. This is an excellent example of an 
interdisciplinary problem of societal value and interest. And 
to answer specifically, do we have at the National Science 
Foundation a program focused on this? No. But are we addressing 
it? Yes. Through the biotechnology approach, through 
understanding, and through the chemistry and physics, and 
engineering approaches to addressing the problems of fuel and 
biofuels specifically. And I will probably ask Dr. Clutter if 
she would like to comment on the interagency biofuels and 
biomass program.
    Ms. Clutter. I am Mary Clutter and I am the AD for Biology 
at NSF. NSF participates in an interagency effort which is 
addressing the production of biomass for fuel purposes. The 
interagency effort has just begun this year and we continue to 
have discussions on programs that we want to initiate.
    Ms. Kaptur. May I ask you which agency chairs that effort?
    Ms. Clutter. The Department of Energy and the Department of 
Agriculture.
    Ms. Kaptur. All right. When you say it began this year, and 
I guess my point is that we knew the problem 40 years ago, 30 
years ago. Why is America so slow? It tells me that we really 
don't have a priority. Here is an example.
    I called over to the Department of Energy the other day and 
I said to the Secretary, I said, now, you know we got a problem 
out there in rural America. Our people are losing their shirts. 
And you can buy ethanol now for about a dollar a gallon, you 
can buy bio-diesel for about a dollar and a half, why don't you 
take and swap some of the oil and purchase, just have an 
administration policy where from an Executive standpoint you 
purchase some of these biofuels which would represent less than 
2 percent of what is in the reserve now? You won't believe the 
answers they give you.
    Well, gee, you know, we store crude, which is all imported 
foreign. We buy it from foreign suppliers in salt domes down in 
Louisiana or somewhere. We can't store ethanol. I said, oh, 
please, come on. We are blending ethanol. We are blending soy 
diesel now with regular fuels.
    You know, you always run into resistance rather than, oh, 
gosh, this is an opportunity for us with prices being what they 
are, to help the production side of the equation out in the 
country. What about new blends? What about an effort that--
interagency processes are good but they scare me, because it is 
like they fall apart. People forget that the people change, it 
loses momentum. I guess what troubles me is that I don't see 
something in here as specific as some of the other initiatives 
that you are proposing that would have fuel self-sufficiency as 
a goal for the country.
    Ms. Colwell. Well, the research that we are doing--let me 
give you a couple of examples and then I am going to ask Dr. 
Eisenstein to say something about coal and fuel and the 
chemical processes and possibly even Dr. Wong, the Assistant 
Director for Engineering, may want to comment.
    Nanoscale science and engineering offers the opportunity to 
double the efficiency of solar cells and I would say a 
combination of nanotechnology and biotechnology which we are 
doing basic research in, could lead to these kinds of 
breakthroughs that would make it compellingly inexpensive to go 
to these other fuels.
    Let me just ask Bob to comment.

                     Research in Energy Generation

    Mr. Eisenstein. I am Bob Eisenstein, the Assistant Director 
for Mathematical and Physical Sciences at NSF. And I have under 
my purview the chemistry division. And in the chemistry 
division there is a lot of research going on----
    Ms. Colwell. Bob, could you stand up.
    Mr. Eisenstein [continuing]. In environmentally benign 
processes of all sorts including energy generation. And one of 
the issues that we are spending a fair amount of resources on 
is the development of hydrogen fuel cells, which is in the area 
that you mentioned earlier. That is a part of fundamental 
research that fits very well under the NSF umbrella as well as 
a number of other environmentally benign energy production 
mechanisms.
    I can provide you with additional information off-line if 
you would like.

                Number of Projects in Energy Generation

    Ms. Kaptur. Well, Doctor, what I would really like you to 
do is to give me--look at NSF in your totality and I would like 
to know every single project--I am going to ask you to provide 
this for the record--that relates to new forms of energy 
production. Some of this isn't high science. In other words, we 
have already done a lot of the work necessary. Cleaning up coal 
continues to elude me. I can't understand what the problem is 
there.
    We have invested a billion-some in the development--it 
should be on-line.
    [The information follows:]

               List of NSF Projects in Energy Generation

    NSF supports research on new energy production that is 
often far in advance of being implemented to a significant 
extent. The awards span much of the range of support within the 
Foundation for research and education. Some of the awards 
listed have a close and straightforward relationship to energy 
production, such as one that has to do with biomass conversion. 
Others are the subject of scientific efforts of longstanding 
that aim to understand fundamental issues that, when resolved, 
may have a large impact on energy production. One deals with 
details of how solid surface restructures itself. This is 
important to advances in catalysis, which in turn is critical 
for many aspects of energy production. For example, inexpensive 
methods of removing sulfur dioxide from the effluent of 
combustion so far elude us because we don't have a catalyst 
that will do the job. Such a catalyst would make use of lower 
grade coal more attractive economically.
    There are other awards, which do not deal with energy 
production directly, but are concerned with understanding 
photosynthesis. Chemists and biologists have worked for decades 
on this problem. It is of interest because in understanding how 
plants and bacteria capture the energy of sunlight, we can 
learn how to design better devices for conversion of solar 
energy to other useful forms, or can create specialized species 
that perform this function better.
    NSF also has a role in education of students specifically 
in issues related to new energy production, such as the project 
that deals with energy production and risk management. In 
addition, a project supports collaborative efforts with other 
non-U.S. institutions to bring to the U.S. the best in 
worldwide thinking and research on energy and its production. 
Another project support workshops to ensure enhanced 
communication among research workers and to avoid duplication 
of effort.

                         Clean Coal Technology

    Mr. Kelly. Clean coal technology is available and that is 
not a question. The same as natural gas or clean coal 
technology. It is all there. What you have is a capital-
intensive industrial structure that unless you have a national 
commitment to a new energy policy or some other way of 
amortizing those capital costs, nothing is going to take place.
    But there are forms of coal--I mean clean coal technology 
is, that is an accomplished fact at this point. So, what you 
are talking about is the current liquid, current capital 
infrastructure that moves the liquids and processes. The 
corporate world will not amortize that and change it and 
reconvert to the kinds of energy you are talking about.
    Ms. Kaptur. Well, Doctor, you have a sense of the 
architecture greater than my own. So, I am going to ask you to 
help me to understand this fuels question and what we are wed 
to today, if America wanted to move forward, if the problem is 
financing or guaranteeing or doing whatever needs to be done, 
if that is the problem, explain it in some way that I can get 
my hands around it. And if hydrogen--I don't sense it is ready 
to go, if it is ready to go, you tell me--I think we are closer 
on photovoltaics and solar cells. I have some of that research 
going on in my own district.
    But on biofuels, there is another one. There is the issue 
merely the capitalization question. I am very, very--for 
America's sake--and, you know, some of these private companies, 
I sometimes question whether they have the national interest at 
heart or whether their shareholders come first. And I have said 
that publicly and I continue to get elected. So, you know, 
there is some of these instrumentalities, you know, benefit by 
doing a whole lot of business offshore in countries that don't 
subscribe to our basic political values.
    So, I care about this country and I care about weaning us 
off of what I consider a dangerous dependence on the import of 
fuels both from the economy standpoint and from the military 
standpoint. And frankly I consider it a defense issue for the 
country.
    So, I would like to know what you are doing. I would, 
frankly, like to see a separate line that talks about the 
totality of what you are doing in terms of energy research. And 
I think I have made my point there and I thank you for 
listening to me.
    Ms. Colwell. I think you will find that we are doing a 
great deal, short-term, long-term.

                       Research on Mental Illness

    Ms. Kaptur. Thank you. Could you answer for me in the area 
of the biological sciences, why is it so hard for America to 
make breakthroughs, real breakthroughs in the diagnosis and 
treatment of serious mental illness, including the development 
of pharmaceuticals to treat these tragic, tragic cases? What is 
holding us back?
    Ms. Colwell. Well, let me just give you the quick answer 
which is that it is very complicated. Now, that is not what you 
want to hear. But let me say we are embarking on major 
initiatives to--not initiative--but major research projects and 
programs to study cognitive sciences, the neural sciences and 
we have a program jointly with NIH in brain research. We are 
very active in, especially, the social and behavioral sciences. 
Earlier I had mentioned that that is an area that we really 
must invest in because we are in a position now to do these 
studies quantitatively and in a way that we couldn't in the 
past because of information technology.
    I would like to ask Dr. Bradburn, who is our very new 
Assistant Director for the Social, Behavioral, and Economic 
Sciences, his thoughts about this. If he and Dr. Clutter would 
like to comment, that would help.
    Mr. Bradburn. I am Norman Bradburn, and I am the AD for the 
Social, Behavioral and Economic Sciences. I think the short 
answer to your question is that we don't understand enough 
about brain function because until recently we have not had any 
ways of studying the brain that were not invasive. And there 
are extreme ethical and other problems that have been 
prohibiting invasive research in the brain. We now, 
fortunately, I think are moving into areas with technological 
developments--ways of observing what goes on in the brain in 
noninvasive ways. And I think that there is great enthusiasm 
and excitement in the neural sciences and and cognitive neural 
sciences that we are going to achieve some fundamental 
understandings which will address some of these major issues.
    This is an area where we have to work closely with the 
National Institute of Mental Health because they have a lot 
more money than we do, and also because they are much more 
focused on that particular issue. But I think the basic issue 
has been that we have not been able to do the kind of research 
on brain structure and functioning because we can't--except for 
where there have been operations and things that have allowed 
some things to go on, we have not been able to do a real 
thorough program.

               Interagency Partnership in Brain Research

    Ms. Kaptur. Is there an interagency task force? You 
mentioned the NIMH. I know the VA comes before our Committee as 
well and I have asked them the same questions on research that 
is funded through the VA or that they compete for in this same 
area of serious mental illness.
    Is there some type of cohesive working group on this 
subject within the administration?
    Ms. Colwell. Dr. Clutter is available.
    Ms. Clutter. I can answer that. Mary Clutter again.
    Yes. There is a brain research project. The VA is not part 
of that interagency partnership but we work closely, NSF works 
closely with NIH and we support a lot of joint projects in 
studying the human brain.
    But let me give you an example of something in the area of 
noninvasive research that Dr. Bradburn just mentioned. This 
past year, the National Science Foundation established a new 
Science and Technology Center for Behavioral Neuroscience at 
Emory University in which the new FMRI, the Functional Magnetic 
Resonance Imaging technology is being used to try to understand 
human behavior. That Science and Technology Center is working 
closely with other universities in that area, including some of 
the HBCUs.
    It just started this past year but we are looking forward 
to some major advances.
    Ms. Kaptur. Just as a Member of Congress who, as you can 
imagine, we vote on all sorts of issues, you mentioned the VA 
is not involved at all. That is----
    Ms. Clutter. I don't know about ``at all.'' But they are 
not part of the research partnership.

                  Enhancing Research on Mental Illness

    Ms. Kaptur. That is curious to me. Because we always, you 
know, $300 million or $400 million, we have requests from them 
in this area and, yet, they are tangential. They have been 
responsible for Nobel Prizes in other areas. I think, magnetic 
resonance imaging, actually came out of the VA. So, it is 
interesting to me even though 70 percent of their beds are 
filled with people who have many of these illnesses complicated 
with alcohol and drugs, and we have 172 hospitals around this 
country, we have the MORECs out there now, they are not--I am 
troubled because I don't sense that--we are doing research 
here, we are doing research, we are doing treatment, but 
somehow this area could have answers faster. But I sense that 
there is a disconnect in a way that I don't even completely 
understand.
    You didn't mention the Surgeon General. I have read reports 
the Surgeon General considers this one of the major areas, the 
whole area of mental illness, that they want to become involved 
in. What are they doing? In fact, I told my staff, set up an 
appointment with them. What is he doing? Does he have money to 
spend? Does he work with anybody else? I find this very 
disconnected.
    Ms. Colwell. It is a nascent area. This is an area where 
research is now really taking off. In the kind of sophisticated 
imaging research, and understanding function and behavior in a 
way that integrates pharmacology, behavioral science, 
fundamental biology, computer science, you are watching a field 
developing rapidly.
    You may say, well, there has been so much in the past, but 
the tools that we are now having available to sciences, in the 
last 5 or 10 years are extraordinary, truly extraordinary. So, 
I would anticipate breakthroughs that you are seeking in the 
next few years.

           GovernmentWide Research on Serious Mental Illness

    Ms. Kaptur. Doctor, if I were to ask you a question to 
supply for the record, how you view research across the Federal 
Government being conducted to address serious mental illness, 
could you answer that question?
    Ms. Colwell. I can answer on behalf of the National Science 
Foundation. I think that is a question that you might want to 
pose to the Science Advisor but I would answer----
    Mr. Frelinghuysen. Your predecessor?
    Ms. Colwell. Certainly I would give you a view from the 
perspective of the NSF.
    Ms. Kaptur. Thank you.
    [The information follows:]

                       Research on Mental Illness

    Mental illness is a national problem of enormous 
importance, one that the federal government needs to deal with 
using many related, cooperative approaches. The nation's 
ability to treat mental illness is steadily evolving and 
improving, thanks to the achievements of scientific research on 
a whole range of subjects--pharmacology, fundamental biology, 
psychiatric medicine, social and behavioral sciences, and other 
areas of science. Research in these areas is in turn made more 
productive by advances in computer science and other tools of 
research. The role of the National Science Foundation is to 
support fundamental research in areas such as cognitive 
neuroscience, molecular and cellular biosciences, and social 
and behavioral study of violent behavior. The results of this 
research make important contributions to the foundations of 
knowledge that help the federal agencies whose missions more 
directly involve the treatment of mental illness.
    Ms. Kaptur. Mr. Chairman, do I have time for another 
question?
    Mr. Frelinghuysen. Well, fire away.

                         germplasm preservation

    Ms. Kaptur. All right. I serve on the Agriculture Committee 
and I am very interested in your plant genome research. I asked 
questions about that in prior years. One of my continuing 
concerns--I have a lot of concerns--but one is, can you answer 
the question for me, how well do we do as a country in 
preserving the germ plasm of plant life? We have several 
storage centers in Colorado and other places, and we do not 
have, for example, a storage center for our flowering and 
ornamental plants. It doesn't exist. How well are we doing as a 
country and as a world in preserving the germ plasm for all 
plant tissue that is out there?
    Ms. Colwell. The answer is better than most. But that is 
not to imply that it is great. The Department of Agriculture 
does have a germ plasm resource bank and I think it has a data 
bank. I believe Dr. Clutter and I, both, before I came to NSF 
and while she was at NSF, served on the advisory committee to 
that germ bank. It is a very difficult and very expensive 
process. It is one that we really need to attend to. I think 
your question is well taken.
    Mary, do you want to add to that?
    Ms. Clutter. Well, I certainly agree with you that we have 
a serious problem. And I also agree with Dr. Colwell that--and 
it is not really a good answer--but our country is better than 
any other country that I know of in preserving this material. 
But we need to do more.
    Ms. Kaptur. I would like to ask you if you can comment for 
the record in this area, looking at the broad array of plant 
life that is out there. If you can give me any guidance as to 
what America could do to better catalog and preserve germ plasm 
of living plants, domestically, and internationally. If you 
could give me a sense of--and I know about some of those 
centers and they don't have enough money and all. That is why I 
am trying to get my arms around this so I can understand what 
is needed to do a better job. As we move toward the future, we 
are going to need nutrasuticals and all kinds of things. We are 
going to need this germ plasm. But it is a really hard area to 
get people to comment in, in an organized way so you can really 
understand what we have and what we don't have.
    Ms. Colwell. May I give you a thoughtful response rather 
than just off the top of my head?
    Ms. Kaptur. Yes.
    Ms. Colwell. I would like to do that.
    [The information follows:]

 Catalog and Preservation of Living Plants Germplasm, Domestically and 
                            Internationally

    Currently in the U.S., the National Plant Germplasm System, 
a cooperative effort by public and private organizations led by 
the U.S. Department of Agriculture, is responsible for 
acquiring, preserving, evaluating, documenting and distributing 
crop germplasm, including wild species related to cultivated 
crops. NSF has a program that supports research on cataloguing 
plants in different parts of the world, and maintenance of and 
research on herbarium collections at the US academic 
institutions, museums and botanical gardens, and maintenance 
and use of selected genetic stocks generated by US researchers. 
The National Cancer Institute, from time to time, supports 
collection and screening of native plants worldwide looking for 
potential pharmaceuticals. In addition, various public and 
private organizations maintain collections of specialized plant 
germplasm that meet their specific needs. Worldwide, 
international centers such as the International Rice Research 
Institute maintain specialized germplasm resources. Most 
countries also maintain their own germplasm resources. Many 
developing nations consider their plant germplasm as their 
national treasure and prohibit their export.
    One way to ``get our arms around this issue'' might be to 
develop a complete listing of all existing plant germplasm 
collections, with relevant information about their content and 
accessibility to the outside users. There are a couple of such 
resources with a focus on cultivated crops, including the 
Report on the State of the World's Plant Genetic Resources 
(1996) authored by the FAO, and a Website maintained by a 
CGIAR-center, the International Plant Genetic Resources 
Institute, that provides a digital, searchable index of crop 
germplasm collections (http://www.cgiar.org/IPGRI/doc/
dbintro.htm).

                          genetic engineering

    Ms. Kaptur. I would very much appreciate any help you could 
give me there.
    I wanted to ask also we see this development of genetically 
modified organisms occurring largely in the private sector now, 
where we are taking genes that have not crossed-fertilized 
naturally and we are implanting genes that create certain 
conditions in a plant.
    For example, with corn and the BT gene as a retardant on 
corn borer. One of my concerns has to do with the pollen that 
is produced from that plant which is an artificially created 
plant and you have a lot of information in here about 
ecosystems and I am very, very interested in that. Last year, 
the competing studies, I think, from Cornell and there was one 
other place, about whether or not the pollen that had come from 
monoculture hybrid corn in the Midwest had caused the death of 
a lot of Monarch butterflies.
    You have a butterfly in the front. I don't know if that is 
a Monarch or not. But what was troubling to me as a 
nonscientist and as a Member of Congress, what's the truth? We 
don't know what the truth is and, yet, we are being asked to 
vote on these different issues. How do we figure out for these 
genetically-modified organisms what their long-term--there is 
no time series data. Are they going to cross-fertilize with a 
weed out there and create something new? How do we get 
information so we can make the best decisions for the country?
    Ms. Colwell. Let me point out something that is very, very 
important. We have had these discussions about genetically-
engineered organisms intensively in 1985 and 1988. I say that 
because I participated in them, as President of the American 
Society for Microbiology and as a member of the Committee of 
the National Academy of Sciences. The important point to 
emphasize very strongly is that the technique of genetic 
engineering is a much more precise way of genetic modification 
because we have been carrying out genetic engineering for 
centuries, in a classical sense, of mating, selecting, mating. 
The corn, for example, that we grow in the Midwest today bears 
hardly any resemblance to the original corn resource that was 
available in Mexico and in that Southwest region where it was 
selected and bred and selected and bred.
    Through genetic engineering we are simply able to more 
precisely excise genes without other genetic material rather 
than imprecisely by the classical techniques. The kinds of 
results that we are getting, have already produced some very 
strong crops that have nutritional value. For example, I was an 
undergraduate at Purdue University when Dr. Oliver Nelson 
developed high-lysine corn. It was considered to be a major 
breakthrough, because it gave a full complement of amino acids 
in the corn and it was better nutrition. That was done 
classically.
    Now, we can do the same thing with Vitamin A in rice by 
using the new techniques of molecular biology. So, that the end 
result is what--the method by which we produce this product is 
simply a more precise approach and it is not a different or 
dangerous approach.
    Obviously, we want to look at the product. I think that the 
Sumuma Conference 30 years ago or more than 30 years ago, at 
which scientists, themselves, addressed the issue of safety of 
genetic engineering was a pivotal point because focus was put 
on that and over the next 35 years, not a single adverse effect 
can be traced directly to genetic engineering per se. So, I 
think the safety of it has been borne out over and over again.
    How we use this tool, as a society, is, of course, 
something that we need a community discussion. But danger? No. 
I would dispute danger. The Monarch butterfly experiments----

                Policy Implications of Genetic Research

    Mr. Frelinghuysen. But scientific leaders need to speak out 
if there is no danger then they need to speak out. I think what 
has happened here is that we have got a void here. We have, 
Europe, in some ways sort of proceeding down a path, banning 
this, banning that.
    Ms. Colwell. I quite agree with you.
    Mr. Frelinghuysen. And, you know, people look at the 
selfish corporate America doing X, Y, and Z. However, if you 
say that corn and other things have been modified over the 
years, somebody needs to speak out and reassure the public. And 
quite honestly, it hasn't been done.
    Ms. Colwell. I quite agree with you. Again, I----
    Mr. Frelinghuysen. And you are one of those leaders and I 
think quite honestly you ought to use your bully pulpit in a 
responsible way and not be reticent. Ms. Kaptur may disagree or 
may agree with me, but I do think this is the time when people 
ought to step up to the plate.
    Excuse me.

                         Hybridization Research

    Ms. Kaptur. That is all right. I am happy to have the 
comment. I did want to say, Doctor, that the time that you were 
at Purdue is within our recorded history, which is the last 30 
years or so, and most of the hybridization that you are 
referencing has occurred within the last quarter, last third of 
the 20th century. Am I correct in that?
    Ms. Colwell. I would say that most of the changes have been 
classical techniques and not genetic engineering.
    Actually, Dr. Clutter, do you want to reaffirm or correct 
me?
    Ms. Clutter. I don't know exactly which question I am 
answering but I certainly agree with Dr. Colwell. I think that 
the--I have just come back from Europe where this is a very, 
very big issue, the whole GMO issue. And, in fact, it is going 
to be the subject of the G-8 meeting that is coming up in June, 
because when people, especially the scientific community in 
Europe, is very, very concerned that they will fall way behind 
the United States because they feel that their funding agencies 
are running scared of this new technology. And this is my 
personal opinion, but I think that this is more of a political 
issue than a scientific issue.
    I think that Dr. Colwell has pointed out that we have seen 
no problems whatsoever with any dangers to human health from 
any genetically-modified crop.

                 Unknown Impacts of Genetic Engineering

    Ms. Kaptur. I think you are making a correct statement 
there in terms of the protein absorption of the human body on 
many of the corns, for example. However, one of the issues, the 
reason I picked out this plant genome research and some of the 
biocomplexity in the environment--you are looking at the 
ecosystem--there are some time series questions that we don't 
know the answers to. And I probably approach this as a woman 
protector. Okay. You want to protect life, you want to--and 
that is why we are here. We got to give voice to the other side 
of the equation in this country.
    But I just wanted to say that I have concerns coming from 
the Midwest if I look at monoculture as the product of the 20th 
century and the fact--I represent the Maumee River, the largest 
tributary that goes into the Great Lakes. The toxics that we 
are still loading into the Great Lakes that come largely now 
from agricultural, not industry, not manufacturing industry, 
they come from agriculture industry, and we haven't been able 
to solve that problem. The pests that we, over a period of 
time, they become resistant and the impacts on the soil of some 
of the natural viruses and the soil life that is there, and I 
see you are taking a look at that.
    I would posture that we, as humankind, do not understand 
what we are--the time has been too short. And if you look at 
the impact on the environment, I don't have quite the 
confidence that you do because I am probably asking a different 
set of questions long-term. You mentioned Vitamin A in rice. 
That triggered a bell in my mind. You know, the problem with 
poor diet in Asia, nobody in Asia asked for Vitamin A in rice. 
But why do they need it? Because their diet is so poor, they 
don't have vegetables, they don't have an agricultural system 
that produces a variety of foods. And, so, we can try to give 
them Vitamin A in rice, but the problem goes back to the form 
of land ownership, the way in which people feed themselves and 
some of America's unintended impacts in very poor regions of 
the world have made life more difficult not better for large 
numbers of rural dwellers.
    I am very interested in the word, sustainability, of the 
ecosystem and connections to and we can tinker around, you 
know, for a century or maybe two centuries, but I don't think 
that we yet understand the long-term consequences.
    I was at a meeting in Hungary recently and a brilliant 
plant scientist came up to me--I wish I had all his degrees--he 
said, Congresswoman, he said, where do you live? I said, I live 
in Ohio. He goes, a lot of your people got allergies? I said, 
hey, I have just developed them. I said, nobody in our family 
ever had them before. He said, why do you think Americans are 
developing so many allergies? I said, well, they say it is in 
the carpet, you know, the mites in the carpet, the kids. He 
said, why don't you look at pollen. He said, take a close look 
at that.
    So, I came back to Washington and I began asking questions 
about the connection between what we are doing in our fields 
and allergy. I can't find anybody that is studying that. I 
asked in the Agriculture Committee, I asked the Science Advisor 
to the President. And maybe there is no connection. But I have 
a lot of unanswered questions in my own mind about the 
manipulation of germ plasm and what else happens in the 
ecosystem, maybe not in the human body, but in the general 
environment in which we live.
    And I am glad to see soil organisms are on your list of 
issues to be concerned about. But I don't have your confidence. 
I have more doubts.
    Ms. Colwell. You have given me an opportunity to make a 
very strong statement about the need for the biocomplexity 
initiative. Quite frankly, and I have said this in 1985 and I 
say it again, we have invested very heavily and rightfully in 
understanding the molecular biology and molecular genetics of 
living systems. But we have not invested sufficiently and 
wisely in understanding ecology.
    And that is clearly one of the reasons that we are 
investing strongly in the biocomplexity initiative is to take 
all of the information at the molecular level, at the community 
level, at the planetary level, at the interaction of living 
systems with their environment, the non-living environment, to 
be able to gain and understand and to be able to derive perhaps 
even a mathematical definition of sustainability. To be able to 
develop predictable models for what we do and outcomes.
    So, that I quite agree with you. You are making the case 
for me for the biocomplexity initiative.
    Ms. Kaptur. And I support that very, very much.
    Ms. Colwell. Thank you.

                    RESEARCH ON MONARCH BUTTERFLIES

    Ms. Kaptur. And I know my time is up, but I would ask you 
to help me, if you could provide information for the record in 
terms of the research on the Monarch butterfly why do we have 
scholars disagreeing as to what happened and what the 
implications are for the future? Do you think within your shop 
you would have the ability to put into the record what is going 
on here?
    Ms. Colwell. Yes. We can respond. It is fundamentally a 
design and data interpretation, we can give you both sides of 
the issue and our best advice.
    Mary, can you comment on the Monarch?
    Mr. Frelinghuysen. If you are going to comment on the 
Monarch, maybe we can get that for the record?
    Ms. Clutter. Yes. We certainly can provide both sides of 
the story on the Monarch butterfly problem.
    Mr. Frelinghuysen. I think that would be a better way.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Kaptur. Thank you. Thank you, Mr. Chairman, very much.

            NSB'S RECOMMENDATION ON ENVIRONMENTAL ACTIVITIES

    Mr. Frelinghuysen. Thank you, Ms. Kaptur.
    Apropos of some of Ms. Kaptur's questions I just want to 
follow-up on some environmental questions. And I know the hour 
is late. The National Science Board, Dr. Kelly, you gave your 
final report in early February, a very ambitious set of 
recommendations for expanded activities at the NSF. Where do we 
stand relative to, Director Colwell, to implementing those 
recommendations?
    Very briefly.
    Ms. Colwell. We have instituted a management scheme with 
Dr. Leinen as the coordinator for the agency----
    Mr. Frelinghuysen. Dr. Leinen is the new Environmental Czar 
as described in various publications. [Laughter.]
    That doesn't have the happiest connotations but we wish you 
well. [Laughter.]
    Ms. Colwell. Czarina, perhaps.
    Mr. Frelinghuysen. As long as you are not Imperial in your 
recommendations. Excuse me.
    Ms. Colwell. So, we have a management plan in place and we 
also have lined the biocomplexity initiative coupled with the 
ongoing environmental programs and projects----

         RELATIONSHIP OF BIOCOMPLEXITY INITIATIVE TO NSB REPORT

    Mr. Frelinghuysen. Well, let me ask you specifically how 
does the current biocomplexity and the environmental initiative 
relate to the new board report?
    Ms. Colwell. Aligns with it.
    Mr. Frelinghuysen. What one is funded at 50--this is the 
Appropriations Committee--now, and you are proposing $136 
million for fiscal year 2001. How do you actually relate?
    Ms. Colwell. We see that as the first step in implementing 
the report of the National Science Board. We see the 
biocomplexity initiative coupled with the ongoing program as 
implementing, as the first step, the initiative or the 
recommendations of the report.
    Mr. Frelinghuysen. So, the amount of money is directly 
related to the implementation of the Board's report?
    Ms. Colwell. Yes, for biocomplexity initiative.
    Mr. Frelinghuysen. It seems at first blush that most of the 
money is proposed to go into research rather than the full set 
of activities proposed by the Board. Will the fiscal year 2000 
budget request include all of the recommended activities of the 
report in an integrated way?
    Ms. Colwell. Well, we will prioritize because we will 
obviously not have all the money to do everything at once. We 
will ensure that we address the report and obviously the budget 
has to be approved by the National Science Board, they produced 
the report. So, you can be assured that it will----

                  STATUS OF NSF'S IMPLEMENTATION PLAN

    Mr. Frelinghuysen. When will the implementation plan be 
ready for congressional review?
    Ms. Colwell. I don't think we have the nascent plan per se. 
We have already begun--we have taken the report as our 
guidance.
    Mr. Frelinghuysen. Since this Committee has had a 
continuing interest for quite a number of years, I assume we 
have, you know, we will get something.
    Mr. Kelly. We are implementing this through the budgetary 
processes. But the entire report is going to be implemented 
over a five-year period. So, it is going to come out 
sequentially in the annual budgets step-by-step.
    And that is why we will need to prioritize it, what comes 
first, what comes second.
    Mr. Frelinghuysen. What do we have to see now in terms of a 
roadmap other than your plan of February 2nd? Now, it is turned 
over to the National Science Foundation for implementation. 
What sort of roadmap do we have to know where you are going? 
Are you going to follow their recommendations to a T?
    Ms. Colwell. That is being developed by the Agency Group 
that Dr. Leinen heads. She has been on board since January. We 
have formed the working group within the agency. We are in the 
process of having external advice provided. So, we are now 
beginning the implementation.
    Mr. Frelinghuysen. We would like to know where you are 
going and I assume you will keep us posted.
    Ms. Colwell. We will keep you informed.

                  Stakeholder Involvement to Shape NSF

    Mr. Frelinghuysen. What activities will the NSF undertake 
to involve stakeholders outside the scientific community in 
helping shape the direction?
    Ms. Colwell. We have advisory committees comprised of 
scientists and folks from the community, and they provide 
advice to us from all of the directors. So, there is ample 
external advice.

          Interface Between Social and Environmental Sciences

    Mr. Frelinghuysen. And lastly, one of the biggest 
challenges for all of us is determining the proper relationship 
between the economic growth and environmental protection. What 
is the NSF doing or planning to do to understand better the 
interface between economics as well as other social sciences 
and the environment?
    Ms. Colwell. Well, that certainly will be one of the 
charges to our new Assistant Director, Dr. Bradburn.
    Mr. Frelinghuysen. And she is in the process of----
    Ms. Colwell. He.
    Mr. Frelinghuysen. He?
    Ms. Colwell. He is right here.
    Mr. Bradburn. Yes. We are starting to put together a plan.
    Mr. Frelinghuysen. You are?
    Mr. Bradburn. And the plan is to be implemented in the 2003 
budget. So, probably next year we would have that estimate.
    Mr. Frelinghuysen. All right.
    Ms. Colwell. I would also add that the National Science 
Foundation's strategic plan addresses directly the task force 
recommendations and the strategic plan approved by the Board. 
And it gives a five-year horizon. Dr. Leinen is the leader.
    Mr. Frelinghuysen. All right. And, for the record, I would 
like if we can get a synopsis of what is going on at Emory at 
that center. We don't need it today but----
    [The information follows:]

   Emory University, NSF Science & Technology Center for Behavioral 
                              Neuroscience

    The NSF Science & Technology Center for Behavioral 
Neuroscience at Emory University, Atlanta, Georgia is led by 
Thomas R. Insel, the principal investigator. How brain 
mechanisms regulate and are regulated by complex social 
behaviors across animal species is one of the greatest 
challenges for neuroscience. This Science & Technology Center 
for Behavioral Neuroscience brings together a diverse group of 
behavioral biologists, psychologists, neuroscientists, 
molecular biologists and engineers from a mix of research-
intensive and teaching-oriented institutions in the Atlanta 
area, including five Historically Black Colleges and 
Universities. Emory University is joined by Georgia State 
University, Georgia Institute of Technology, Morehouse School 
of Medicine and the Atlanta University Center (Morehouse 
College, Spelman College, Morris Brown College and Clark-
Atlanta University) to build a nationally recognized program 
that will define the interaction of brain processes and complex 
behaviors, and create a cadre of interdisciplinary 
investigators focused on behavioral neuroscience.
    A novel intensive collaboratory approach introduces modern 
molecular biology into behavioral research with an explicitly 
comparative aspect. This perspective is taken on how brain 
function, even at the molecular level, may be influenced by 
particular kinds of social behavior among individuals. 
Comparing different species offers insights about the 
conservation of genes and circuits during evolution, and it may 
transform the way we think about how hormones influence 
behavior, how genes are regulated, and how brain mechanisms 
have been adapted for different environmental demands. Six core 
facilities have been formed for technical developments to allow 
answering scientific questions that previously could not be 
asked. The research of this Center will produce new 
discoveries, and the integration of research and education for 
a broad diversity of students will promote a new generation of 
interdisciplinary neuroscientists.
    The impact of this Center extends beyond the scientific 
advances. The infrastructure of this Center creates a new 
network of research and educational institutions in the Atlanta 
area to provide a strong local focus, where excellent 
facilities and researchers from diverse backgrounds also offer 
outstanding opportunities for underrepresented groups at all 
educational levels. Taken together, these features make this 
Center an exceptional investment by NSF for research and 
education.

             Congressional Interest in Mental Health Issues

    Mr. Frelinghuysen. And I share with Congresswoman Kaptur an 
interest in mental health issues and it seems to me that since 
this Committee has jurisdiction over the VA that one would 
suspect that as an independent agency that there would be 
collaborative efforts. If there aren't, we are going to suggest 
that some be established.
    Anything else?
    [No response.]
    Mr. Frelinghuysen. If not, thank you very much for your 
time today.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                               I N D E X

                              ----------                              

                      National Science Foundation

                                                                   Page
Advanced Technology Education Program............................39, 45
Agency Coordination for Carbon-cycle Research....................    70
ATE Awards.......................................................    40
Budget Justification.............................................   131
Center for Learning and Teaching.................................    31
Clean Coal Technology............................................    79
Cognitive Science Research.......................................    51
Congressional Interest in Mental Health Issues...................    92
CREST Program....................................................    46
CSEMS Program....................................................    41
Developing Early Interest in Science and Engineering.............    30
Development Time for Neon........................................    55
Distribution of New Sites........................................    54
Enhancing Research on Mental Illness.............................    81
Environmental Problems in the Ecosystem..........................    33
EPSCoR Competition...............................................    61
EPSCoR Mission...................................................    62
EPSCoR Program Funding...........................................42, 60
Establishing Priorities for NSF's Initiatives....................    20
Evolution of NSF's Programs and Initiatives......................    37
Federal Support of Research......................................    28
Five Year Funding Plan...........................................    24
Funding for 2-Year and 4-Year Colleges...........................    41
Funding for NSF's Initiatives....................................    22
Funding for the ATE Program......................................    39
Funding of Public vs. Private Colleges and Universities..........    44
Future Increases for Funding.....................................    24
Future of Social Sciences........................................    52
Genetic Engineering..............................................    83
Germplasm Preservation...........................................    82
Government-wide Research on Serious Mental Illness...............    82
Grant Workshops for Educational Institutions.....................    41
Historically Black Colleges and Universities.....................    40
Hybridization Research...........................................    85
Impact of Population on the ISE Program..........................    50
Increase in Graduate Research Stipend............................    38
Increased NSF Technological Capabilities.........................    26
Increased Use of IPA Personnel...................................    26
Indications of Climate Change....................................    54
Informal Science Education.......................................    48
Initiatives in NSF's Budget......................................    20
Interagency Partnership in Brain Research........................    80
Interface Between Social and Environmental Sciences..............    91
IT Workforce.....................................................    66
Level of NSF Funding for Michigan................................    69
List of Top Grantees.............................................    45
Materials Research Participation Initiatives.....................    22
Measuring the Contributions of Grantees..........................    35
Meeting IT Workforce Requirements................................    67
National High Magnetic Field Laboratory..........................    33
NEON and Earthscope..............................................    53
Networking with the Underrepresented Groups......................    31
NSB Environmental and Engineering Report.........................    34
NSB's Recommendation on Environmental Activities.................    90
NSB's Role in Setting Priorities.................................    21
NSF Administrative Requirements..................................    27
NSF Funding Changes..............................................    23
NSF Systemic Initiatives.........................................    32
NSF's Administration and Management..............................    25
NSF's Involvement With Minority Institutions.....................    32
NSF's Proposed 17 Percent Increase...............................    25
Number of Projects in Energy Generation..........................    78
Number of Reviewers of NSF Proposals.............................    43
OMB's Role in Setting Priorities.................................    21
Opening Remarks..................................................     1
Participation of Underrepresented Groups in Science..............    31
Partnerships Between NSF and EPA.................................    68
Partnerships in the Social Sciences..............................    52
Patent Development...............................................    36
Policy Implications of Genetic Research..........................    85
Priority of Graduate Research Fellowship Program.................    38
Proposed FY 2001 ATE Funding Increase............................    40
Questions for the Record.........................................    93
Relationship of Biocomplexity Initiative to NSB Report...........    90
Research in Energy Generation....................................    78
Research in Energy Self-sufficiency..............................    77
Research on Mental Illness.......................................    80
Research on Monarch Butterflies..................................    87
Resources for ESPSCoR............................................    62
Review of Systemic Initiatives...................................    55
Reviewers From Private Industry..................................    43
Role of Community Colleges in Centers for Learning and Teaching..    47
SBIR Funding.....................................................    44
Science and Society..............................................    50
Source of IPA Personnel..........................................    27
Stakeholder Involvement to Shape NSF.............................    91
Statewide Systemic Initiatives...................................    58
Statistics on Program Terminations...............................    37
Status of NSF's Implementation Plan..............................    90
Strengthening Centers for Education..............................    47
Success of Statewide Systemic Initiative.........................    59
Support for Carbon Research......................................    70
Support for Engineering, Manufacturing and Industrial Innovation.    71
Support for HIAPER...............................................    52
Support for LIGO.................................................    44
Support of Foundations...........................................    44
Total Money Awarded in Grants in FY 1999.........................    43
Training the Workforce of the Future.............................    65
Unknown Impacts of Genetic Engineering...........................    85

                                <greek-d>




</pre></body></html>
